<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-111]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                MILITARY PERSONNEL SUBCOMMITTEE HEARING

                                   ON

BUDGET REQUEST ON THE VIEWS OF MILITARY ADVOCACY AND BENEFICIARY GROUPS

                               __________

                              HEARING HELD

                            FEBRUARY 7, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
43-248 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  THELMA DRAKE, Virginia
PATRICK J. MURPHY, Pennsylvania      WALTER B. JONES, North Carolina
CAROL SHEA-PORTER, New Hampshire     JOE WILSON, South Carolina
NIKI TSONGAS, Massachusetts
                 Debra Wada, Professional Staff Member
                 John Chapla, Professional Staff Member
                     Rosellen Kim, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, February 7, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request on the Views of Military 
  Advocacy and Beneficiary Groups................................     1

Appendix:

Thursday, February 7, 2008.......................................    39
                              ----------                              

                       THURSDAY, FEBRUARY 7, 2008
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
         THE VIEWS OF MILITARY ADVOCACY AND BENEFICIARY GROUPS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Barnes, Joseph L., National Executive Director, Fleet Reserve 
  Association....................................................     6
Becker, F. Jed, Vice Chairman, Armed Forces Marketing Council....    12
Bowers, Todd, Director of Government Affairs.....................     3
Johnson, David, Chairman, American Logistics Association.........    10
Moakler, Kathleen B., Director, Government Relations, The 
  National Military Family Association...........................     7
Strobridge, Col. Steve, (Ret.), Director, Government Relations, 
  Military Officers Association of America, U.S. Air Force.......     9

                                APPENDIX

Prepared Statements:

    Becker, F. Jed...............................................    71
    Bowers, Todd.................................................    49
    Davis, Hon. Susan A..........................................    43
    Johnson, David...............................................    54
    McHugh, Hon. John M..........................................    47
    Moakler, Kathleen B..........................................    85
    Statement of The Fleet Reserve Association by Joseph L. 
      Barnes.....................................................   121
    Statement of The Military Coalition presented by Col. Steven 
      P. Strobridge, Joseph L. Barnes, and Kathleen B. Moakler...   133

Documents Submitted for the Record:

    Duffy, Peter J., Deputy Director Legislation, National Guard 
      Association of the United States...........................   187
    Iraq and Afghanistan Veterans of America Issue Report, 
      January 2008 on Mental Health Injuries, The Invisible 
      Wounds of War..............................................   218
    Statement of The Naval Reserve Association...................   205
    Statement of the Reserve Officers Association of the United 
      States.....................................................   195

Questions and Answers Submitted for the Record:

    Mrs. Boyda...................................................   238
    Mrs. Davis...................................................   237
    Mr. McHugh...................................................   238
FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
         THE VIEWS OF MILITARY ADVOCACY AND BENEFICIARY GROUPS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                        Washington, DC, Thursday, February 7, 2008.
    The subcommittee met, pursuant to call, at 3:04 p.m., in 
room 2212, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon, everybody. Thank you for being 
here. I want to call this meeting to order.
    I want to thank all of you for your attendance today. And 
we understand that it has been relatively short notice, 
although you seem very well prepared. So I hope that we were 
able to give you the kind of information that you need.
    Our hearing today focuses on the views of military advocacy 
and beneficiary groups. Similar to last year, we have invited a 
handful of organizations to testify on a wide range of programs 
and policies that affect our servicemembers, retirees, and 
their families.
    Historically, as you all know, many of these organizations 
have been asked to share their views at individual hearings 
that focused on specific topics. And that has been very useful, 
of course, to the subcommittee. But sometimes we were only able 
to hear from people on a specific hearing topic. And so, we 
haven't been able to necessarily put that into a full context 
and see many of the competing requests that you all naturally 
are going to be bringing and that come from your organizations.
    I know last year we were interrupted by a series of votes. 
But the subcommittee did find it informative to have just a 
beneficiary-focused hearing.
    In anticipation of the hearings that the subcommittee will 
have on a wide range of topics, we thought it would be helpful 
again today to hear from the advocacy and from the beneficiary 
organizations as we begin our efforts to go out to members' 
districts as well and to see firsthand these issues and how 
that insight might help us as we develop the Fiscal Year 2009 
National Defense Authorization Act (NDAA), which is what we are 
going to be doing, as you know, in the coming year.
    Given that we will have limited resources--and I think that 
is no surprise to anybody--and especially the difficulty in 
finding mandatory spending to address a multitude of needs, we 
hope that the subcommittee will be able to hear from you about 
what your key priorities are for the servicemember and for 
their families.
    I want to welcome you all today. Mr. Todd Bowers, 
Government Relations Director for Iraq and Afghanistan Veterans 
of America; Mr. Joseph Barnes, National Executive Secretary for 
the Fleet Reserve Association; Mrs. Kathleen Moakler, Director 
of Government Relations Department, National Military Family 
Association; Colonel Steve Strobridge, USAF, Retired, Director, 
Government Relations Military Officers Association of America; 
Mr. David Johnson, Chairman of the Board, American Logistics 
Association; and Mr. Jed Becker, Vice Chairman of the Armed 
Forces Marketing Council.
    I wanted to mention that Mr. Barnes, Mrs. Moakler, and 
Colonel Strobridge are here not just to represent their 
individual organization, but you are here also to represent the 
positions of The Military Coalition (TMC), which is comprised 
of over 30 uniformed services and veterans organizations. And 
we know they all would love to be at the table. So you have a 
special burden on you today. Given the time limitations, of 
course, we cannot hear from everybody, so we have asked the 
coalition to represent its members today.
    I want to thank all of you, thank you for your testimony. 
And we look forward to the hearing today.
    And I want to turn to Mr. McHugh and see if he has any 
comments that he would like to make.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 43.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you, Madam Chairman. I will try to be 
very brief. I would ask that my full statement be entered in 
the record in its entirety. And let me note that I think you 
covered the waterfront pretty effectively, and your speech 
could stand in good stead for mine, in fact. But let me add my 
words of welcome to all of our panelists.
    Most of them represent organizations that are certainly no 
stranger to this subcommittee. And we thank them, as you noted, 
Madam Chair, for their continued advocacy for the systems that 
their members rely upon and for those concerns that their 
members bring to them.
    And all of you really provide an invaluable link between 
folks that we need to focus on and care a great deal about and 
their concerns and help us better understand what we need to 
do. I want to give a particular tip of the hat to Mr. Bowers, 
whose first appearance here, particularly in his association 
with Iraq and Afghanistan Veterans of America, shows the 
continuing sacrifices and service that our men and women in 
uniform make. And we look forward to your comments.
    As you noted, Madam Chair, all of the groups didn't have a 
lot of forewarning. As I looked at the presentation of the 
formal testimony for The Military Coalition, about 50 pages and 
50 issues they raised, we may want to compress it even more 
next year. But I think what that does show, in all seriousness, 
is how broad the range of challenges that we face.
    And as you noted, Madam Chair, every dollar we have to 
spend we probably have $1,000 or more in places that we could 
well expend it. And again, to echo your words, Madam Chair, the 
fact that we can benefit from the focus and from the 
prioritizations that our presenters will provide to us here 
today is very, very important.
    And as we go forward in the rest of the hearings, this our 
first, as the chairwoman noted, in the development of the 
Fiscal Year 2009 NDAA, we certainly look forward to working 
with all of you. And ultimately, at least I would strongly 
recommend, working with Chairman Skelton and, of course, the 
ranking member and others and having our imprint on the House 
Armed Services Committee (HASC) view and estimates letter to go 
the Budget Committee. Obviously we need to make sure that we 
weigh in and do our best to try to extract the resources under 
that process that would be necessary in this challenge.
    So thank you, Madam Chair, for the leadership in bringing 
us together here today. And I look forward to everybody's 
testimony.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 47.]
    Mrs. Davis. Thank you. Thank you, Mr. McHugh. I think we 
are just going to go down the line.
    Mr. Bowers, if you would like to start. And we will go 
ahead and hear everyone's testimony and then take questions. 
Thank you.

STATEMENT OF TODD BOWERS, DIRECTOR OF GOVERNMENT AFFAIRS, IRAQ 
              AND AFGHANISTAN VETERANS OF AMERICA

    Mr. Bowers. Thank you. Ms. Chairman, ranking member, and 
distinguished members of the committee, on behalf of the Iraq 
and Afghanistan Veterans of America (IAVA) and our thousands of 
members nationwide, I thank you for the opportunity to testify 
today regarding military personnel policies and programs.
    As the war in Iraq continues into its fifth year, this 
generation of troops faces new and unique problems. Today IAVA 
is releasing our annual legislative agenda. Our legislative 
agenda covers the entire warfighting cycle, before, during and 
after deployment, and outlines practical solutions to the most 
pressing problems facing Iraq and Afghanistan veterans today.
    In my ten-year career as a Marine reservist I have had the 
honor of serving in Iraq twice. During these tours it became 
clear to me that taking care of the individual on your left and 
right is paramount to accomplish your mission. Only when I 
returned home did I understand that taking care of the people 
you served with once you get home is just as important.
    This is not only a moral issue, but it is a national 
security concern. A rifle is only as strong as the mind 
controlling it.
    Our 2008 legislative agenda is now available on our 
website. And excuse the shameless plug, but if everybody goes 
to www.iava.org, they can see what I have brought for the 
committee today.
    We also have along with our legislative agenda reports on 
many issues facing veterans today, things ranging from 
traumatic brain injury (TBI), mental health injuries to many 
others.
    I have brought copies of our legislative agenda and reports 
with me today for your convenience. In the interest of brevity 
today I limit my testimony to our key proposals regarding 
mental health. Rates of psychological injuries among new 
veterans are high and rising. At least 30 to 40 percent of Iraq 
veterans, or about half a million people, will face a serious 
psychological injury, including depression, anxiety, or post-
traumatic stress disorder (PTSD).
    Multiple tours and inadequate time at home between 
deployments increase rates of combat stress by 50 percent. The 
ramifications of psychological injuries are clear. Untreated 
mental health problems can and do lead to unemployment, 
domestic violence, substance abuse, homelessness, and in worse 
scenarios, suicide.
    Twenty percent of married troops in Iraq say that they are 
planning a divorce. At least 40,000 Iraq and Afghanistan 
veterans have been treated at a Veterans Administration (VA) 
hospital for some form of substance abuse. The current Army 
suicide rate is the highest it has been in 26 years.
    Reports released just last week found a 20 percent increase 
in the number of suicide attempts in the Army alone. The first 
step to coping effectively with the mental health crisis is 
addressing the stigma attached to receiving mental health 
treatment.
    More than half of soldiers and Marines in Iraq who test 
positive for a mental health injury are concerned that they 
will be seen as weak by their fellow servicemembers. One in 
three of these troops worry about the effect of a mental health 
diagnosis on their career. As a result, many troops who need 
care do not seek treatment.
    IAVA supports efforts already underway to reduce mental 
health stigma. The Air Force, for instance, has seen a 30 
percent drop in suicide rates since the institution of a 
comprehensive suicide-prevention campaign. IAVA recommends 
creating a Department of Defense (DOD)-wide initiative to share 
best practices for mental health treatment, including outreach 
and education regarding mental health for both troops and most 
importantly, their families, and an emphasis on education for 
military leaders in the service and leadership academies.
    In addition, servicemembers suffering from service-
connected mental health issues should not be improperly 
penalized for their injuries. IAVA recommends imposing an 
immediate moratorium on military discharges for personality 
disorders until an audit of past personality discharges is 
completed.
    Moreover, troops should be able to seek voluntary alcohol 
and substance-abuse counseling and treatment without the 
requirement of command notification. Such notification could be 
at the discretion of the treating mental health professional.
    Finally, IAVA supports amending the Uniform Code of 
Military Justice (UCMJ) to establish a preference for mental 
health treatment over criminal prosecution for military suicide 
attempts. I am proud to announce that IAVA has partnered with 
the Advertising Council, also known as the Ad Council, on a 
very important project that will have nationwide impact on 
stigma that is often associated with members of our military 
who seek mental health treatment.
    Over the next three years, IAVA will be working with the Ad 
Council on a massive media campaign aimed at informing the 
American public and our Nation's military that seeking help is 
a sign of strength rather than weakness. We hope that the 
outcome of our efforts will be an American public that is more 
understanding of the difficulties that veterans face when they 
reintegrate into society.
    But in addition to addressing stigma, the Department of 
Defense must do a better job of screening troops for mental 
health problems. The current system of paperwork evaluations, 
the Post-Deployment Health Assessment (PDHA) and Post-
Deployment Health Reassessment (PDHRA), is ineffective.
    A 2006 study led by Army Colonel Charles Hoge, MD, at the 
Walter Reed Army Institute of Research, looked at the results 
of Iraq veterans' PDHAs. Only 19 percent of those returning 
from Iraq self-reported a mental health problem. But 35 percent 
of those troops actually sought mental health care in the year 
following their deployment.
    If the PDHA is intended to correctly identify troops who 
will need mental health care, it simply does not work. A 
follow-up study in 2007, also published in the Journal of the 
American Medical Association, concluded, ``Surveys taken 
immediately on return from deployment substantially 
underestimate the mental health burden.''
    Although the PDHRA, which troops fill out six months after 
deployment, is more likely to identify mental health injuries, 
its overall effectiveness is also dubious. Troops may not be 
filling out their forms accurately. Troops needing counseling 
are not consistently getting referrals. And those with 
referrals do not always get treatment. IAVA therefore supports 
mandatory and confidential mental health and traumatic brain 
injury screening by a mental health professional for all 
troops, both before and at least 90 days after a combat tour.
    After stigma and inadequate screening, the final barrier to 
mental health care is lack of access. The number of licensed 
psychologists in the military has dropped by more than 20 
percent in recent years. Less than 40 percent of troops with 
psychological wounds are getting treated.
    Funding within the Department of Defense must be focused on 
current shortages of mental health professionals. IAVA 
recommends a study of reasons for attrition among military 
mental health professionals and the creation of new recruitment 
and retention incentives for mental health care providers such 
as scholarships or college loan forgiveness.
    Military families with TRICARE should have improved access 
to mental health care services. And active duty families should 
be given unlimited access to mental health care and family and 
marital counseling on military bases.
    I thank you for providing me the opportunity to testify 
before you this afternoon. I hope that the information I have 
provided will help to lay the groundwork for the committee to 
eliminate the obstacles that our Nation's newest veterans are 
facing. It would be my pleasure to answer any question you may 
have at this time. Thank you.
    [The prepared statement of Mr. Bowers can be found in the 
Appendix on page 49.]
    Mrs. Davis. Thank you. Thank you, Mr. Bowers.
    And I let Mr. Bowers go about one and a half minutes over. 
And if everybody can try and stay in the five minutes, that 
would greatly appreciated. I know that your time is very 
precious, and we want to hear from you. So if you can do that, 
great. We will let you go over just a little bit. But that 
doesn't include all of us up here, of course.
    Please, Mr. Barnes.

  STATEMENT OF JOSEPH L. BARNES, NATIONAL EXECUTIVE DIRECTOR, 
                   FLEET RESERVE ASSOCIATION

    Mr. Barnes. Madam Chairwoman, Mr. McHugh, and distinguished 
members of the subcommittee, thank you for this opportunity to 
present the concerns of The Military Coalition. The extensive 
coalition statement reflects the consensus of TMC organizations 
and extensive work by eight legislative committees, each 
comprised with representatives from the coalition's nearly 
three dozen military and veterans organizations. I will briefly 
address key Active Duty, Guard and Reserve, and retiree issues, 
and my colleagues will then address other issues.
    But first, I wish to thank you and the entire subcommittee 
for the steadfast and strong support of our military personnel, 
retirees, veterans, their families, and survivors, and 
particularly for recently enacted wounded warrior enhancements. 
Sustaining adequate Active, Guard and Reserve end strength to 
effectively prosecute the war effort and other demanding 
operational commitments is vital to our national security. And 
TMC urges strong support for Army and Marine Corps end strength 
increases in fiscal year 2009 and beyond.
    Wearing down the force contributes to serious morale, 
readiness, and retention challenges. And the coalition remains 
concerned about the Air Force and Navy's ambitious end strength 
reductions.
    Restoring military pay comparability remains a top 
priority, and TMC urges this distinguished subcommittee to 
authorize at least a 3.9 percent pay hike. We appreciate your 
leadership authorizing past higher than employment cost index 
(ECI) active duty pay hikes. And despite significant progress 
on compensation levels, a 3.4 percent gap continues.
    Housing standards determine local housing allowance rates, 
which need to be revised to more appropriately reflect where 
service personnel are living. For example, only E-9s, which 
comprise 1.25 percent of the enlisted force, are eligible for 
Basic Allowance for Housing (BAH) for single-family detached 
homes.
    The need to address permanent change of station (PCS) 
expense reimbursements is detailed in our statement. These 
include temporary lodging expenses for Continental United 
States (CONUS) moves, reimbursements for house hunting trips, 
car rentals when vehicles have already been shipped, and 
authority to ship two privately owned vehicles overseas.
    The coalition strongly supports giving credit for all 
active duty service since September 11, 2001 for reserve 
retirement-age adjustment purposes. The coalition also supports 
reinforcing the employer support for the Guard and Reserve 
program to include tax relief for employers of selected reserve 
personnel.
    Guard and Reserve issues are extremely important, and in 
addition to these concerns, dozens of other issues are 
addressed in the Guard and Reserve commission recommendations. 
And the coalition respectfully recommends that this 
distinguished subcommittee schedule a separate hearing focused 
solely on the panel's findings. TMC supports integrating Guard 
and Reserve, Montgomery G.I. Bill (MGIB), and active duty MGIB 
laws under Title 38 along with the restoration of basic reserve 
MGIB rates to the intended level of approximately 50 percent of 
the active duty rates.
    And in considering the transfer of education benefits to 
spouses, it is also important not to forget currently serving 
Veterans Educational Assistance Program (VEAP)-era personnel 
who are not authorized to enroll in the MGIB. The coalition 
urges this distinguished subcommittee to act on recommendations 
of the Veterans' Disability Benefits Commission (VDBC) and 
implement a plan to eliminate the reduction of VA disability 
compensation for military retired pay for all disabled 
retirees.
    Finally, the coalition remains committed to adequately 
funding to ensure adequate access to the commissary benefit for 
all beneficiaries and appreciates this distinguished 
subcommittee's effective oversight of this important benefit. 
Providing adequate programs, facilities, and support services 
for personnel impacted by Base Realignment and Closure (BRAC) 
actions, re-basing initiatives, and global repositioning is 
very important, particularly during war time, which alone 
results in significant stress on servicemembers and their 
families due to demanding operations commitments, repeated 
deployments, and other service requirements. Morale, Welfare, 
and Recreation (MWR) programs must also be adequately funded.
    Thank you again for the opportunity to present our 
recommendations. And I stand ready to answer any questions you 
may have.
    [The prepared statement of Mr. Barnes can be found in the 
Appendix on page 121.]
    Mr. Barnes. Kathy Moakler will now discuss family 
readiness, military spouse, and survivor issues.

    STATEMENT OF KATHLEEN B. MOAKLER, DIRECTOR, GOVERNMENT 
      RELATIONS, THE NATIONAL MILITARY FAMILY ASSOCIATION

    Mrs. Moakler. Madam Chairwoman, Mr. McHugh, and other 
members of the Personnel Subcommittee, thank you for the many 
family-friendly provisions included in the Fiscal Year 2008 
NDAA. We are gratified that you have recognized the important 
role that families play in supporting our servicemembers in all 
stages of deployment.
    Excellent support programs exist. It is important to find 
out which programs families are finding most effective and 
channel resources toward supporting those programs. The 
evaluation process and report you require in the 2008 NDAA 
should help to accomplish that.
    You also recognized the excellence of the yellow ribbon 
reintegration program by calling for this program to be 
implemented by the National Guard in all states and 
territories. This strong reintegration process, taking the 
initiative to educate families along with the returning 
servicemember, acknowledging the challenges of reconnecting as 
a family, and providing information and tools to accomplish 
this is too important a task to ask the National Guard to 
stretch already thin financial resources. We hope that this 
would be funded.
    As deployments continue, military families can be stressed 
to the breaking point. We endorse the IAVA's assertion of the 
need for greater access to mental health care and counseling 
for returning servicemembers and families.
    Military children, the treasure of many military families, 
have shouldered the burden of sacrifice with great pride. We 
appreciate this subcommittee's requirement of a report from DOD 
on programs that touch military children and their caregivers 
and hope the research can provide a basis for the most 
effective programs for our children.
    A fully funded, robust family readiness program is crucial 
to military readiness. As deployments continue, families must 
know there is a secure yet flexible set of support services 
across all components available to them to reinforce readiness 
and build resiliency.
    While military child development centers have consistently 
been ranked highest in national ratings, families still 
experience access problems. Despite new centers and funding 
provided last year, there is still a shortfall of over 30,000 
spaces. Increased needs for respite care for both the families 
of the deployed and families with special needs also add new 
strains to the system. We ask the committee to remain committed 
to helping all military families access quality childcare.
    Education is important to military families. The education 
of military children is a prime concern of their parents. The 
need for DOD-provided supplemental funding for impact aid is 
increasing. And we ask for increased supplemental funding, 
especially for schools who find themselves with increased 
numbers of military students.
    The coalition appreciates the interest of the 
Administration and Congress in expanding the eligibility of 
servicemembers to transfer Montgomery G.I. bill education 
benefits to family members. Military spouses face unique 
employment challenges as they deal with deployments and 
relocations. We appreciate the partnerships being developed 
between DOD and the services with the Department of Labor and 
employers. Extending military spouse preference to all Federal 
agencies would expand employment opportunities for this very 
mobile workforce.
    The coalition is grateful for the implementation last fall 
of the long-awaited full replacement value reimbursement. 
Servicemembers still have concerns as they anticipate a move. 
They can face insufficient housing capacity, both on and off 
the installation, over-crowded schools, and the shortage of 
other community support structures due to BRAC and re-basing.
    We appreciate your continuing attention to the needs of the 
families of those who have made the greatest sacrifice, the 
survivors of those who have died as a result of active duty 
service. The coalition views the special survival allowance as 
a first step toward the repeal of the SBP/DIC offset. We would 
urge this subcommittee to expand eligibility for this allowance 
to all Survivor Benefit Plan (SBP)/Dependency and Indemnity 
Compensation (DIC) eligible survivors.
    Family readiness is integral to servicemember readiness. 
The cost of that readiness is part of the cost of war and the 
national responsibility. We ask Congress to shoulder that 
responsibility as servicemembers and their families shoulder 
theirs.
    Thank you. And I look forward to your questions.
    [The prepared statement of Mrs. Moakler can be found in the 
Appendix on page 85.]
    Mrs. Davis. Thank you.
    Colonel.

STATEMENT OF COL. STEVE STROBRIDGE (RET.), DIRECTOR, GOVERNMENT 
 RELATIONS, MILITARY OFFICERS ASSOCIATION OF AMERICA, U.S. AIR 
                             FORCE

    Colonel Strobridge. Thank you, Madam Chair, Ranking Member 
McHugh, and members of the subcommittee. My portion of the 
coalition testimony will address healthcare.
    We fully support Mr. Todd Bower's comments on care for 
wounded warriors and their families. And we very much applaud 
the first step actions that the subcommittee took last year. 
But much more is needed.
    For one, members and families who are forced from active 
duty because of service-caused disabilities should retain 
active duty level TRICARE coverage for three years. The new law 
does that only for the servicemember, not for the family, and 
only when no V.A. care is available. That is too limited and 
too vague for troops facing extended rehab after leaving active 
duty.
    We allow three years active duty coverage for survivors 
when a servicemember dies. We think the severely wounded and 
their families deserve no less.
    We are also concerned that there is no central oversight to 
ensure that all departments and services implement best 
practices for multiple ongoing TBI and PTSD projects. We urge 
including this responsibility into the newly legislated DOD/VA 
inter-agency program office.
    Finally, we support the disability retirement model in 
which DOD accepts the VA assigned disability ratings. But we 
still need to address inter-service differences on what 
conditions are unfitting and which ones are pre-existing. But 
we do oppose doing away with the DOD disability retirement 
system entirely, as some envision, which we think would 
substantially reduce retirement benefits for many wounded 
warriors.
    On TRICARE fees, we don't support the large increases, as 
you know, that are proposed by DOD and the task force. And we 
urge you to restore the $1.2 billion budget cut. We think it is 
wrong that the task force focused only on cost to the 
government with barely a sentence on what military people earn 
for their career of sacrifice.
    In 2001 the new Administration's officials praised TRICARE 
for Life, but now act as if no one expected that providing 
health care for retirees over 65 would be expensive. We can't 
see what changed during six years of war that makes the 
military community any less deserving of that benefit.
    The plan to raise drug co-pays 100 to 400 percent would put 
them higher than most civilian plans. The Blue Cross Blue 
Shield plan that Military Officers Association of America 
(MOAA), my organization, offers our civilian employees has 
lower co-pays for pharmacy across the board than what the task 
force proposes for the military.
    DOD would quadruple the retail generic co-payment from $3 
to $15, and that is higher than 87 percent of civilian plans 
charge. Wal-Mart is offering generics to any civilian in 
America for $4. There is something wrong there.
    The coalition believes military benefits should be driven 
by standards and principles, not by the budget. Just as we have 
statutory standards for most other major military compensation 
elements, we urge the subcommittee to put some standards in 
this year's defense bill using H.R. 579 and S. 604 as models. 
Fundamental among these are that military retirement and health 
benefits are the primary offset for the extraordinary 
sacrifices inherent in a 20- to 30-year military career, that 
extended sacrifice constitutes a very large in-kind prepayment 
of premiums far beyond what other Americans pay that dwarfs the 
cash payments that we are so focused on.
    Finally, that the percentage increase in military fees in 
any given year shouldn't exceed the percentage growth in 
military compensation. For years the coalition has offered to 
partner with the Defense Department on alternative ways to 
reduce government costs without hurting beneficiaries. But the 
department refused that offer.
    Now, thanks to Dr. Kassels and General Granger, they are 
looking at some of our options. And we will be willing 
partners, if allowed.
    One final item--a recent Government Accountability Office 
(GAO) report confirmed that Guard and Reserve members are over-
charged for TRICARE Reserve Select (TRS) by about $50 for 
single people and $175 a month for families. We urge the 
subcommittee to cut those TRS fees and direct refunds to the 
people who have clearly paid too much. We continue to believe--
and the Commission on the Guard and Reserve agreed--that the 
government will save money and reserve families will be better 
served by authorizing an optional subsidy to continue their 
civilian family coverage when they are mobilized just as we 
already do for DOD civilians.
    That concludes my statement. And we thank you for your 
consideration.
    [The prepared statement of Colonel Strobridge can be found 
in the Appendix on page 133.]
    Mrs. Davis. Thank you.
    Mr. Johnson.

   STATEMENT OF DAVID JOHNSON, CHAIRMAN, AMERICAN LOGISTICS 
                          ASSOCIATION

    Mr. Johnson. Good afternoon, Madam Chair, and members of 
the subcommittee. The American Logistics Association (ALA) is 
most grateful to you for your continued strong leadership in 
preserving and improving the commissary exchange MWR benefits 
for servicemembers, retirees, and their families. I ask that my 
written statement be entered into the record in its entirety.
    It is an honor to be here today as chairman of the American 
Logistics Association representing nearly 250 of America's 
leading manufacturers, nearly 60 brokers and distributors, 
service companies, media outlets, and more than 1,400 
individual members who are actively engaged in providing goods 
and services to the military resale and MWR activities. I want 
to reaffirm ALA's strong commitment to maintaining the 
commissary and exchange benefit as an integral part of the 
total non-pay compensation package for servicemembers and their 
families.
    Many of the issues I will address today will be similar to 
issues raised in prior years. In virtually every instance, 
progress has been made, but there is more to do.
    Specifically, I will address the state of commissary 
surcharge dollars, Guard and Reserve outreach efforts, Armed 
Service Exchange Regulations (ASER), exchange joint ventures, 
and finally, I will provide some comments on some pending 
legislation.
    Madam Chair, I am pleased to convey to this subcommittee a 
huge well done on the issue of finding relief for limited 
commissary surcharge dollars. For the past several years, the 
members of this subcommittee have voiced concern in unison 
about the challenges facing Defense Commissary Agency (DeCA) 
with the increased burdens being placed on the surcharge 
account by BRAC and re-stationing construction requirements.
    Your leadership and persistence, along with the 
determination of this association, elevated the issue to the 
Secretary of Defense. And in a recent ruling by the DOD general 
counsel, the determination was made that commissary 
construction projects that are not necessitated by BRAC or re-
stationing cannot be paid out of surcharge, but must come from 
BRAC or Military Construction (MILCON) funding.
    As a result of DeCA's outstanding job managing the military 
commissaries, shoppers continue to save an average of over 30 
percent on groceries when compared to the retail grocery 
stores. Accordingly, the commissary benefit and savings have 
become increasingly more important to the National Guard and 
Reserve members and their families.
    In a recent initiative, DeCA and ALA partnered to provide 
close to $100,000 in DeCA certifichecks to needy Guard and 
Reserve families just prior to Christmas. In addition, DeCA has 
set out an aggressive scheduled for increased outreach efforts 
to support the Guard and Reserve. The longer term need to 
provide a more permanent solution to affording better access to 
the retail benefits for the Guard and Reserve may require some 
out of the box thinking and support from this subcommittee.
    Our association actively supports and promotes programs 
that enhance the quality of life for our military 
servicemembers, retirees, and their families. Exchanges are a 
key component of DOD's quality of life programs. Unfortunately, 
authorized patrons continue to be limited in their choice and 
selection of merchandise sold in the exchanges.
    The armed service exchange regulation, ASER, delineates 
what can or cannot be sold in exchanges. Madam Chair, it is 
ALA's position that shoppers should have a choice without 
restrictions on merchandise sold in exchanges.
    Elimination of the furniture restrictions would permit 
greater availability of furniture, afford servicemembers the 
opportunity to receive the best possible value, and therefore, 
provide a true non-compensation benefit with absolutely no 
burden on the taxpayers. In addition, use of the military star 
card offers a lower interest rate and payment terms, especially 
for deployed troops.
    Finally, I would like to take a moment to address two 
legislative initiatives that we are tracking. The first is H.R. 
1974, the Federal Employee Combat Zone Tax Parity Act. We 
support this initiative to provide tax relief for service in a 
combat zone by civilian employees of the United States. As you 
are aware, there have been years of tireless service by 
exchange associates to man field exchange operations under 
extremely dangerous conditions to support the quality of life 
of our deployed troops.
    Next, we express our support for H.R. 4071, the Disabled 
Veterans Right to Commissaries and Space Available Travel Act. 
This proposal would extend benefits to service-disabled 
veterans with a rating of 30 percent or more and to their 
families.
    The same arguments about over-crowding and cost will be 
raised that were faced when full shopping privileges were being 
considered for the Guard and Reserve. It did not happen. The 
sky did not fall.
    In a recent interview with Admiral Michael Mullen, chairman 
of the Joint Chiefs, he laid out one of his key initiatives for 
2008, which was to take care of servicemen and women when in 
uniform and afterwards. This initiative goes in that direction.
    The nature of injuries today and the technology and 
treatments has changed the nature of disabilities. We support 
his initiative.
    Thank you, Madam Chair and members of this subcommittee for 
providing industry the opportunity to present its views on 
these critically important topics. More importantly, thank you 
for your stewardship over these important benefits that are 
essential to our military families' quality of life. I will be 
happy to answer any questions.
    [The prepared statement of Mr. Johnson can be found in the 
Appendix on page 54.]
    Mrs. Davis. Thank you. Thank you.
    Mr. Becker.

    STATEMENT OF F. JED BECKER, VICE CHAIRMAN, ARMED FORCES 
                       MARKETING COUNCIL

    Mr. Becker. Good afternoon, Madam Chairwoman and 
distinguished members of the subcommittee. My name is Jed 
Becker. And I am a member of the Armed Forces Marketing Council 
(AFMC). I am most appreciative for being given the opportunity 
to be here today to offer comments concerning the military 
resale system and the vital role it plays in supporting our 
troops and their families.
    As referenced, AFMC is a non-profit business league founded 
in 1969. Member firms work on the behalf of the manufacturers 
who supply consumer products to military resale activities 
around the world. Succinctly, the purpose of the council is to 
encourage the worldwide availability of quality consumer 
products at the best possible prices and value and to promote 
unity of effort in this endeavor through a cooperative working 
relationship among Congress, the military, and the supplier 
industry.
    Member firms are small, privately-held businesses formed in 
response to the need for efficient, specialized services, 
marketing, and merchandising. In order to limit my verbal 
statement, I have prepared a written statement and would ask 
that those comments are entered into the record.
    As backdrop, I would like to note that the military resale 
stands out as a most successful system. In simple terms, it 
works well. It is honest, efficient, and responsive. Taxpayers, 
legislators, and leaders throughout government can share in the 
pride of this outstanding success story.
    Madam Chairwoman, this committee brings a clear legacy of 
prudence in protecting the value of the resale benefit. It has 
protected the system from unfounded reorganizations, while it 
has correctly encouraged and supported the very competent 
resale operators along their driven path in their process of 
continuous improvement. In addition to the broad scope balance 
provided by your oversight, this committee has been effective 
in recognizing and seizing those opportunities at the margin 
that serve to maximize the value of the benefit while 
minimizing the expense to taxpayers.
    Looking forward, we would like to call your attention to a 
few matters on which we seek your support. Second destination 
transportation funding--Congress has passed legislation that 
mandates funding the cost of transporting American products to 
foreign-based resale operations. Maintaining this commitment is 
of vital importance to the well-being of military families. 
Your vigilance in directing continuity in this program is 
requested.
    Earlier in my comments I noted that this committee has 
effectively seized many favorable opportunities at the margin. 
The AFMC requests your attention to two such opportunities that 
were mentioned by my colleague here, Mr. Johnson.
    First, we remind you that the antiquated ASER restrictions 
limit the exchanges in terms of the merchandise they can sell. 
The conditions under which these restrictions were placed have 
changed dramatically over time. We urge you to grant relief 
from these restrictions. Such relief would enhance the value of 
the exchange benefit to all qualified shoppers and would do so 
at no expense.
    Second, the AFMC believes you will find a high yield, 
highly leveragable opportunity to support our disabled veterans 
in supporting H.R. 4071 that has been introduced by Congressman 
Filner. This legislation proposes to extend exchange and 
commissary shopping benefits to veterans rated as 30 percent 
disabled or greater. We believe that affording this benefit 
would come at virtually no cost to the government and would 
again accomplish a great deal in taking care of those 
servicemembers who have made a great personal sacrifice in 
defense of our country.
    In closing, I would like to note that the military resale 
industry is fragile. Shortsighted plans disguised as innovation 
will continue to threaten its comprehensive efficacy. Most 
easily overlooked in this beneficial evolution of military 
resale is the power of two things: first, the intelligence and 
awareness of our servicemembers and their ability to recognize 
a marginalized benefit; and second, the risks we all would 
assume if we failed to recognize that America is deriving 
service from resale system employees that exceed their costs.
    With very, very few exceptions these are people of high 
order serving those who defend our freedom. Measures that might 
break their spirit of purpose would bring tragic loss to all of 
us. I welcome your questions.
    [The prepared statement of Mr. Becker can be found in the 
Appendix on page 71.]
    Mrs. Davis. Thank you. I want to thank you all very much 
for staying within the time and around the time. And we 
appreciate that.
    Let me start, I think, with one of the difficult questions 
to ask. And that is--and I think you made a good attempt at 
trying to prioritize. But we know that within all the 
initiatives that have been brought forth and that have been 
brought forth for some time--because a lot of this is clearly 
not new. We have been trying to expand on the benefits for some 
time.
    But these programs really do require mandatory offsets in 
order to be included in the defense authorization bill, whether 
it is MGIB, reserve retirement, SBP, DIC, or concurrent 
receipt. You know, all of them would require us to do that.
    So given our limited ability to address mandatory 
increases, do you feel comfortable--are you in a position to 
say what the highest priority would be, so that we have a 
better way of trying to look at the limited funds that we are 
obviously going to have to work with? And we don't expect there 
to be a consensus at the table, I can assure you.
    But some of you may have played this game that, you know, 
where you have a list of things up on a wall and you put the 
green sticker and the red sticker for them--can you put up your 
green sticker? You know, what is it that you would pick first 
that you think that we absolutely need to deal with? And we can 
start with anybody who feels they would like to jump in.
    Colonel Strobridge. Well, Madam Chairwoman, I think the 
members of the subcommittee and the staff, I hope, will agree 
that we do this every year. We realize that it is impossible 
for you to do everything and that we do make a good faith 
effort to try to prioritize and provide you and the staff some 
options to make progress. It is, you are right, very difficult 
to pick one item and say we want to do this at the exclusion of 
some other thing.
    We all have associations that represent different segments 
of the population. And, of course, each has their own priority. 
But I think we have worked very hard to try to identify ways to 
make progress on the survivor benefits issue, for example, ways 
to make progress on the concurrent receipt issue. If we can't 
do the whole thing, what is the first priority? And we try to 
establish those.
    One of the important ones, I think, that kind of cuts 
across most of the areas of the population this year, 
unfortunately, is the TRICARE issue. And the mandatory aspect 
of that, we understand, is the pharmacy issue. And it is 
particularly bad when they propose egregious fee increases.
    We realize the challenge that places on you. That affects 
pretty much everybody. It affects active duty families, many of 
whom are on TRICARE Standard. It affects the Guard and Reserve 
families, many of whom don't live near a military facility and 
have to go down and get their medications. And when you are 
talking about $15 for generic and $25 for brand name and $45 
for off-brand and you are talking about a family that may have 
four or five prescriptions, that adds up to a lot of money over 
the years.
    So if I personally had to pick one item, I would say that 
is important. But I would stress that we really want to work 
very hard with the subcommittee to find ways to identify other 
progress.
    The omission of the active duty death survivors from the 
SBP/DIC was particularly painful. I think we don't like to see 
people who are in that situation feel like they have been, you 
know, left--that somebody is telling them they don't deserve 
any relief, even as small as that was.
    Mrs. Davis. Okay. So I wanted to follow up with you because 
I think that was a relatively small benefit. And some people 
would say it was almost offensive actually.
    Colonel Strobridge. Yes.
    Mrs. Davis. And so, but at least addressing it in a small 
way, you think, is helpful.
    Colonel Strobridge. We understand from dealing with the 
subcommittee that--we do realize that that is a small step, 
that it is the first step. And we believe that in good faith. 
We know you are trying to do it.
    Mrs. Davis. Okay. Thank you.
    I want to let anybody else jump in. I am going to limit 
myself to the five minutes, and then we are going to go to 
other members. And we will come back to a number of other ones.
    Yes, Mr. Barnes.
    Mr. Barnes. Madam Chairwoman, I just wanted to reference 
Steve's comments here about in trying to determine the 
priorities. It is very important with our association, I think 
as the coalition as a whole, to consider the number of 
personnel affected.
    And the health care funding issue, both with regard to the 
Department of Defense and the Department of Veterans Affairs 
affects everyone. It affects many of the issues that have been 
addressed here. And that is first and foremost on our list. And 
evaluating these from that perspective is very important.
    Mrs. Davis. Anybody, real quickly? I said I was going to 
limit myself to five minutes, but perhaps would you like to 
follow up with that, Mr. McHugh, as part of your--can you do 
this in 30 seconds? Or I will come back to you.
    Mrs. Moakler. I think an issue that is very important to 
active duty and Guard and Reserve families, especially those of 
the deployed, is access to quality childcare.
    Mrs. Davis. Okay.
    Mrs. Moakler. That is extremely important.
    Mrs. Davis. Okay, thank you.
    Mr. Johnson. Yes, Madam Chair. The issue that I see as 
paramount is continued full support of the commissary funding. 
It is the same issue that we address every year. But if you 
look at the value of that benefit and the return on investment 
for the expenditures, it is money well-spent. And I believe 
that we would ask you to consider that----
    Mrs. Davis. Okay, great.
    Mr. McHugh, pick up?
    Mr. McHugh. Well, Jed, you don't have any thoughts on this?
    Mr. Becker. I do, so I appreciate your carrying this out. I 
was afraid you weren't going to. Actually, relative to some of 
the issues that are raised by some of the other panelists, we 
have the good fortune that you have some oversight involving 
some assets that, I believe, are immediately leveragable to 
yield meaningful benefit to this important population.
    And when I say that, I mean the existing commissary and 
exchange facilities that are fully capitalized. They are there. 
They are accessible to many of these potential beneficiaries. 
And I will have to return to the two notes that I made in my 
opening statements.
    One is to revisit the ASER restrictions. It is simply take 
an asset and use it in a sub-optimal way. Without the ASER 
restrictions, the benefit would be enhanced dramatically 
without any cost.
    The other item was the possibility of expanding these 
benefits to those who are disabled when defending the country 
who, again, at no incremental cost to the government or an 
extremely, extremely low cost, negligible, could enjoy those 
benefits.
    Mr. McHugh. Okay. Then let me follow up on your two 
comments, Jed. Both you and Mr. Johnson may want to address 
this.
    ASER is something that when I had a chance to serve as 
chair of this subcommittee I supported expanding or narrowing 
the restrictions, depending on your perspective. The 
subcommittee under Dr. Snyder has done that as well. And we 
have had some challenges, shall we say, from, as we are told to 
call them, the other body.
    I am curious. Have you had any opportunity to talk to 
representatives of the other house and what is your perspective 
on them? Because the fact of the matter is while there may not 
be a cost to taxpayers, per say, as I know you are aware, there 
are those in the private business communities surrounding bases 
that are concerned about these expansions. But through all of 
that--I will speak for myself--I have certainly been 
supportive.
    But it gets a little frustrating when we act on occasions 
and they don't. Have you had a chance to talk to them? I will 
rephrase the question.
    Mr. Becker. Yes. No, we have. And, in fact, I think in some 
instances we had thought we had won the support we were 
seeking. And I would only note that we appreciate your 
continuing support and your patience while we attempt to work 
on the other side.
    My sense is that in some instances these items have been 
lost among the many items on their agendas. And I don't really 
have the sense that we have much opposition not as much as we 
have a lack of follow up. But we will continue to pursue it and 
appreciate your support.
    Mr. McHugh. David, I don't know if you want to add to that 
or not.
    Mr. Johnson. No, I don't. I concur completely.
    Mr. McHugh. The proposal to extend exchange and commissary 
benefits to non-retirees, 30 percent disabled has been 
addressed in some of the military trade publications and 
elsewhere, there are those who are at least concerned that this 
kind of expansion would serve to erode the benefit to those who 
are receiving it currently. I am not in any way validating that 
argument or unvalidating it.
    I am curious how you would respond to those who hold that 
concern. And they hold it legitimately. I don't think there is 
any reason to denigrate their perspective necessarily. But what 
would you tell them?
    Mr. Johnson. What I would say, Congressman, is the same 
arguments came up when they argued against giving full 
commissary shopping privileges to reservists several years ago. 
They thought that it denigrates the benefit of the active duty. 
And I strongly disagree.
    As a reservist myself, I know what a benefit it is for the 
troops under my command that they have access to that benefit. 
And I think for our veterans who are 30 percent disabled or 
more I think that speaks volumes about what we are willing to 
do for them. And as Mr. Becker explained, it is virtually no 
cost at all to the commissary system to absorb those shoppers.
    Mr. McHugh. Just curiosity--the 30 percent figure--is that 
just associated with the current disability compensation level? 
Is that where the 30 percent came from? Why 30 percent? Why not 
25? Why not 40? Why not?
    Mr. Johnson. I think we just came out in support of 
Congressman Filner's bill, which was the 30 percent.
    Mr. McHugh. Okay. All right, all right.
    I don't know if anyone on The Military Coalition side wants 
to be heard on this or not.
    Colonel Strobridge. Yes, sir, I would. And this is one 
where we do have a difference of opinion with our friends in 
ALA. And we strongly supported extension of privileges to the 
Guard and Reserve, so that is not our concern.
    Some people, I think, think of this as a wounded warrior 
issue. The reality is if you are 30 percent disabled in 
service, you are going to be retired. As a retiree, you will 
have an I.D. card. You will be entitled to commissary and 
exchange privileges.
    The issue that we are talking about, to me, is primarily 
people who separate from the service, in many cases serve a 
civilian career, incur a disability later in life. Those folks, 
to us, fully deserve their veterans compensation, their 
disability compensation, their veterans benefits. But that is 
not the same as serving a career, which is what we see the 
commissary as part and parcel of the military benefit that DOD 
provides as an employer to its current employees and its career 
employees.
    And to us that is why we have DOD separate systems from VA. 
It is a career compensation benefit. If you are disabled 
immediately, you get it. If you incur it later in life, you are 
a VA beneficiary, but you are not entitled to the DOD benefits. 
We fought the commissary subsidy so many times and had to make 
that argument to justify it it is difficult, I think, to back 
it away when that argument is not being made because we know it 
will be in the future.
    Mr. McHugh. I thank you.
    Madam Chair, I see the red light. I appreciate your 
patience. If there is another round, I would be happy to ask 
some more questions.
    Mrs. Davis. Thank you. Well, I think that is an important 
question. And, you know, we don't necessarily want to put 
people on the spot, but we understand that there is a real 
difference of opinion in that and appreciate that we might come 
back to that issue.
    Ms. Boyda.
    Mrs. Boyda. Thank you. Thank you all for being here. This 
is extremely helpful. For those of us who are freshmen, it is 
nice to actually kind of participate in this instead of being 
in this fog where we were last year. So it is wonderful.
    Mr. Bowers, I would like to ask you some questions just on 
when you were talking about--first of all, thank you very much 
for your service and for going over and being deployed twice. I 
didn't hear an answer from you when you said--what was--did I 
hear an answer what your number one priority would be? I 
didn't.
    Mr. Bowers. Well, overall, our number one priority, what we 
are going to be working on this year--and then we understand 
the funding concerns that come along with it--is a more 
revamped and up to date Montgomery G.I. bill. The reason being 
is that--and G.I. bill is no longer what it once was. And we 
see the G.I. bill as one of the most effective reintegration 
tools for veterans of this generation.
    Our second priority that we really are pushing on and one 
that I think may be more appropriate today is the mandatory 
confidential counseling for veterans before and after their 
deployment within 90 days once they return from combat. This 
requires an initial investment. But we see this in the long 
term essentially as a cost savings plan.
    The issues that we aren't addressing now when veterans 
return from combat are eventually going to come back and bite 
us in the rear end about 20 years from now when they have some 
serious difficulties reintegrating into society, which as we 
all have learned, is going to come with a higher price tag. We 
see it as an initial investment and a way to sort of stop these 
things beforehand. And to be very honest, it cuts out the 
element of the ten percent.
    That is a big elephant in the room right now. But there is 
always going to be those individuals that may or may not be 
taking advantage of the system. By requiring mandatory pre and 
post-deployment screening, you are setting a baseline and 
having something to follow through with. So you know exactly 
how combat has affected them, both mentally and physically to 
some extent.
    Mrs. Boyda. Thank you very much. In your testimony you had 
said that multiple tours and inadequate time at home and 
between deployments increased rates of combat stress at 50 
percent. Where do you have those numbers?
    Mr. Bowers. Well, I am going to defer to one of our many 
reports that we just released a few days ago. We have annotated 
in there where we did get those numbers. And I know that some 
of the resources that we have had have the numbers come out of 
the Institute of Medicine and also a few numbers from the Rand 
Corporation that have been extremely beneficial. But I would 
appreciate the opportunity to be able to follow up and provide 
those numbers to you in-depth with one of our reports.
    Mrs. Boyda. I would appreciate that----
    And out of the testimony someone was going to be working 
with the Advertising Council. Who was that? That was you.
    Mr. Bowers. Yes.
    Mrs. Boyda. I represent Topeka, Kansas, which actually in 
the district there is Fort Riley, Fort Leavenworth, head of the 
National Guard for Kansas. But I live in Topeka. There is a VA 
hospital that kind of was the Mayo Clinic of mental health back 
in the 1950's. The Menninger Clinic actually came from that.
    And so, we work in issues of PTSD and traumatic brain 
injury, just the whole mental health issue quite a bit. And 
obviously we are seeing that it is getting very, very difficult 
to keep and to have trained professionals on. Are you planning 
to do any kind of Ad Council, again, of asking people to step 
up and serve their country by serving our veterans?
    Mr. Bowers. Yes, we are. I think what we are doing is we 
are deferring to the experts in regards to the advertising 
aspect. And we have been very fortunate to have Batten, Barton, 
Durstine & Osborn (BBDO) Corporation take us on pro bono to 
come up with these ads and how it is going to work.
    It is a three-year campaign. We begin our focus groups 
actually next week. And we will be doing a tremendous amount of 
those throughout the country. And I believe one of the 
locations include Kansas, to know what people will be most 
receptive from.
    During the World Series we ran two ads to see if this 
program was going to be effective. And with a partnership with 
Major League Baseball, ourselves, and the Ad Council we set up 
a website called welcomebackveterans.org.
    The advertisement was very effective with Tom Hanks doing 
the voiceover saying, ``If you, the general American public, 
even if you have not been touched by the veterans who have 
served in this war, want to help, here is where you can go 
to.'' And we had a tremendous impact.
    And we are hoping to be able to see that in our stigma 
reduction campaigns. Even the name, post traumatic stress 
disorder leads you to a disorder as a fault.
    I always convey to my Marines--and I did this just last 
weekend--that when you come home from a combat, if you have 
been impacted by something, it doesn't make you weaker. It 
makes you stronger.
    You harness those things that you deal with, and it makes 
you a better Marine or soldier, airman or sailor. You are able 
to see what you have had and be able to build on that.
    The Marine Corps always says pain is weakness leaving the 
body. Well, that shouldn't just be limited to physical aspects. 
It should also be mental issues.
    Mrs. Boyda. I hope you would let us know in this committee 
if there is anything that we can do to help further that cause. 
And on behalf of Staff Sergeant Boyda, who is now 63 years old, 
Semper Fi.
    Mr. Bowers. Thank you.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chairman.
    Mrs. Moakler, was it you that mentioned the beyond the 
yellow ribbon campaign? I think it was.
    Mrs. Moakler. Yes.
    Dr. Snyder. And the funding of it. And I don't know if you 
saw yesterday when Secretary Gates testified with Admiral 
Mullen before the House Armed Services Committee, the full 
committee. I asked him about it, and then Representative Kline 
brought it up also about the funding for it. And, as you know, 
we authorized it in the National Guard bill, but it hasn't seen 
any money yet for it.
    I am optimistic that we will see that funding come 
available through the supplemental process over the next few 
months. But we all need to follow that along closely. I think 
the Pentagon is committed to seeing that it is funded and 
understands the value of it.
    And one of Secretary Gates' staff members grabbed me during 
a break in the hearing. And he had all the numbers down. He 
knew what kind of money they were looking for. And it is just 
that we have got to see the supplemental process flow.
    So I am optimistic that will happen. But it is something 
that we all together need to follow.
    Mrs. Moakler. It is a great program. It was so successful 
in Minnesota. And we certainly would like to see that enacted 
in all the other states and territories to help those families.
    Dr. Snyder. Yes. Representative Kline was a strong advocate 
of that and is on this subcommittee also.
    I wanted to spend some further time on this G.I. bill 
issue. And I just came from Secretary Peake's, former 
lieutenant general, now Secretary of Veterans Affairs--Peake--
his first budget hearing before the Veterans Affairs Committee. 
And in his opening statement, Chairman Filner talked about one 
of his goals for this session of Congress is to see--I forget 
how he explains it, but a G.I. bill for, you know, this era. He 
wants to really modernize the bill.
    And we are seeing a lot of proposals out there. Senator 
Webb probably has the most far-reaching, which I think would be 
great, which goes back to the days of right after World War II. 
I think Representative Bobby Scott has the mirror bill on this 
side.
    Several of you have mentioned different ideas for the G.I. 
bill. My concern I have about this is we are getting back to 
maybe where we were a few years. We are all going to come up 
with great ideas.
    The problem we are going to have is the one that we have in 
the jurisdiction reserve component, active component. One is 
coming out of the Veterans Affairs Department and that 
committee, and one is coming out of the Pentagon and this 
committee. And the two bodies have different ideas.
    The Congress is in agreement about it. But the Pentagon is 
very clear. They see the reserve component G.I. bill as being a 
management issue. They don't see it as being a reintegration 
issue.
    And I think you can make a very strong argument that even 
for a reserve component member who comes back and stays in the 
reserve, if they have been in a combat situation for 12 or 15 
months, it clearly is a reintegration issue. I also think it is 
an issue of investment in people. People deserve it, 
particularly if the active component veterans are getting it.
    And so, I have this fear that--you know, the last defense 
bill that was just signed by the President a few weeks ago we 
made progress on this reserve component issue, but nearly as 
much as we ought to. And we haven't dealt with the disparity in 
benefits, the actual amounts. We haven't dealt about the 
disparity between what the G.I. bill pays versus what cost of a 
four-year education is. We haven't dealt with the $1,200 issue.
    I mean, there are a lot of issues we haven't dealt with. I 
think we are kind of getting in a situation now where we are 
all coming up with these ideas. The bottom line is, I think, 
that if we don't deal with this conflict in jurisdiction 
between the Pentagon and the Department of Veterans Affairs, 
none of these things are going to go very far.
    And so, it comes back to this idea of the bill that the 
staff here worked on a lot. And it is very complicated trying 
to merge these things together. Because until it gets under one 
jurisdiction I think we will continue to hear from people in 
the Pentagon it is a management tool, our reenlistment is good 
for reserve component, we don't need to change that benefit.
    And some of you may know from the past with Secretary 
Dominguez, who is a very nice guy, but, I mean, he actually--I 
kind of backed him into a corner and said, if we can keep--were 
you there, Colonel Strobridge, when I said, ``Well, if we 
reduced it by 50 percent and reenlistment rates stayed the 
same, you are okay with that? If we reduced it by 80 percent?''
    I mean, he had to acknowledge yes, he was, because as a 
management tool, if the reenlistment rates for reserve 
component are the same, it means you don't have to change the 
G.I. bill. And I think that misses the point of the G.I. bill.
    So I have rambled on too much with this. But my basic 
question is do you all have concerns that we now are getting a 
lot of ideas about the G.I. bill but if we don't deal with this 
issue of jurisdiction that the Pentagon and the Department of 
Veterans Affairs being separated we are not going to make much 
progress in the G.I. bill.
    Again, Colonel Strobridge, if you don't mind----
    Colonel Strobridge. Yes, sir. As I know you know, we 
strongly supported that initiative last year.
    Dr. Snyder. Yes.
    Colonel Strobridge. We agree with you that is a fundamental 
underpinning. Very frankly, we thought that is what we were 
going to get last year rather than--we were hoping for the 
reserve transition, but we were kind of surprised to get the 
reserve transition and not the consolidation.
    We agree with you that that is a key issue. From our 
standpoint, there are so many initiatives out there, we would 
agree with almost any of them. The issue is what can be done.
    You know, we are sort of in the same boat we were when you 
asked us to prioritize things. We will take just about anything 
that is progress because there are so many problems.
    I can't think of too many bills out there that we wouldn't 
support. And whatever works out to be the lowest common 
denominator that Congress will support, you will find our 
enthusiastic support for.
    Dr. Snyder. My time is up, and maybe we can go back around. 
I will go at this again.
    But it is going to be hard for us to have a Senator Webb-
type bill or a comprehensive donor-type bill without bringing 
this together because we could do a Senator Webb bill, but I 
bet it would not include reserve component, the way the 
jurisdiction currently is.
    In the next round I will pursue this further so more of you 
can make comments.
    Colonel Strobridge. Madam Chair, would you indulge me for 
15 seconds to fix a grievous omission in a previous answer?
    Mrs. Davis. Sure.
    Colonel Strobridge. My conscience is really bothering me. 
You talked about prioritizing. One of the really important 
things is the Guard and Reserve retirement system where we did 
it prospectively and we didn't give credit for those years of 
repeated tours in Iraq that have already been served. That is a 
huge priority.
    Mrs. Davis. Great, thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    I was very interested, Mrs. Moakler, when you started 
naming daycare as the top priority for you. Could you expand on 
that a little bit and tell us exactly why that came first with 
all the other issues that we have heard about?
    Mrs. Moakler. I think as families continue to live through 
deployments, the need for respite care is growing. And that is 
a segment that we really haven't addressed in childcare before. 
Because when you are a single parent with a deployed 
servicemember, you need a break. You need a break.
    And there is really not enough designated drop-in care for 
folks at most military child development centers. But there is 
a real need to leave the kids for a day or so and have that 
open. And a lot of installations are opening up their child 
development centers for respite care.
    We also have the added need for the parents of children 
with special needs where they need respite care as well. And 
what agencies are they going to look for? They are going to 
look for that excellent child development center on the 
installation to be available to them as well as one of their 
benefits. So that is why we are refocusing a little bit this 
year on the basics, on those basic benefits that we want for 
military families in peacetime and in war.
    Ms. Shea-Porter. Okay, thank you. And could you tell us a 
little bit about the children who are at the daycares right 
now, the changes and what you see is necessary for the daycares 
to treat the special conditions that the children are 
experiencing?
    Mrs. Moakler. I think we are looking forward to some of the 
research that is going to be done on the affects of deployment 
on children. We are doing some of that within the National 
Military Family Association. We have our Operation Purple Camp. 
And we are surveying children and parents as to how the 
children are dealing with deployment and the war and how 
parents perceive children dealing with deployment and the war.
    We are also working with the folks who look at the very 
young children, from zero to three, who previously people might 
not have considered how they were reacting to the absence of a 
parent for a great amount of time, reacting to the stress that 
the single parent is going through. But more and more research 
is being done into that. And we are hoping that as they come 
out with an outcome that this will be able to be offered to the 
caregivers of the young children.
    Ms. Shea-Porter. And Congressman Jones tells the story--and 
it just keeps sticking in my mind--about going to read to some 
children at a military facility. And one of the children saying 
to him my daddy is not dead yet.
    And I am wondering, you know, obviously this is having an 
impact on these children and if they are able to take care of 
them through the daycare centers, if there is special training, 
if there is money available to train the people who are working 
with these children every day. And those kids have the same 
kind of anxiety that Congressman Jones talked about seeing.
    Mrs. Moakler. And we are educating these young parents, 
too. I know we have new parent programs with the military. But 
in our testimony we spotlighted one young man, and he happens 
to be the son of one of our staff members. His dad was deployed 
for six months, and they were getting ready to go to the 
airport to pick him up.
    And he seemed very reluctant to go with his mom to the 
airport. And his mom couldn't understand what the problem was. 
And part of the problem was that he wanted to know will daddy 
still like me.
    And, of course, his mother was just floored that she hadn't 
stopped to consider what his feelings might be, what his 
worries might be with his father coming back. So just making 
parents aware to ask the right questions and to kind of 
anticipate the reactions of their children to the deployment is 
very important.
    Ms. Shea-Porter. Thank you. My time is expired.
    Mrs. Davis. Thank you. Thank you. It is my time for 
questions, so I will go ahead and do that, and we will have 
another round as well.
    I believe it was yesterday Admiral Mullen mentioned or said 
in the middle of testimony over on the Senate side when asked 
about the services--he said the services are not broken, but 
they are breakable. I am wondering if you were to say to him, 
you know, this is what you should look for, this is where the 
indications might be, particularly as it relates to families 
and those coming back, what would you tell him, what maybe in 
parlance metrics? What would you want him to be looking at that 
you think would be an indication of where we are?
    Do you want to begin?
    Mrs. Moakler. I think that we want to make sure that the 
families have the tools to deal with the deployments, that they 
have access to counseling when they do run up against a brick 
wall, when they can't handle the 15-month deployments any more. 
We also want when the servicemembers do come back, as part of 
their reintegration process, that they are given time to come 
together again as a family because they need that time in order 
to sustain them when the deployments come again.
    And so, giving lip service to two weeks off or a limited 
amount of time when the servicemember comes back to be with 
their families and then it is right off again into training or, 
you know, don't take too much leave. Even though you might have 
that 30 days, you know, don't take too much leave because we 
need to get right back into the saddle and get going again. 
Families need time to rebuild, they really do.
    Mrs. Davis. Anybody else?
    Mr. Barnes. Excuse me. Madam Chairwoman, I just want to 
reference the importance of adequacy of end strength. And the 
workload continues despite many of the draw-downs and 
reductions in personnel. And I know from personal interaction 
and information I have received one on one that in many cases, 
particularly with regard to the Navy, due to shortages of 
certain job specialties and what have you, exacerbated perhaps 
by ratings, consolidations, and what have you, that senior 
enlisted personnel bear a growing responsibility to fulfill the 
jobs and the requirements of their subordinates because of 
vacancies in their company, their division or what have you.
    So the adequacy of end strength is very, very important. I 
know with regard to the Navy that individual augmentees 
continue from the--for support of the war effort. Those 
individual billets are taken out of hide at the command 
activity level. And the work goes on. So that, in and of 
itself, is an example of stress on personnel and the importance 
of the adequacy of end strengths.
    Just a final aspect, as you all know--growing career 
personnel to serve in key positions because of their technical 
skills is very, very important. And when we are downsizing and 
requiring those personnel to depart from the service, that has 
a significant impact. But I reiterate that the scope of work 
continues despite decreased personnel.
    Mr. Bowers. If I could just draw in on sort of a personal 
aspect where my unit is preparing to go on our fourth 
deployment, we fulfill a very important role within the Marine 
Corps. And that is civil military operations. We are a civil 
affairs unit.
    When these conflicts started, I think that there was a 
difficulty in understanding the end strength of how many people 
we would need to fill these civil military operation roles. So 
I have sort of made up my own phrase for this. But I refer to 
it as inter-humantation, where we are seeing other military 
occupational specialties fulfilling other military occupational 
specialties where there may be gaps.
    For my specific instance, the Marine Corps is utilizing our 
unit to fill civil military operation gaps. This may be 
effective, but it is a very slow process. It takes a long time 
to get someone who has spent their entire career known as 
``Death from Above'' to start reintegrating and working with 
civilians on a battlefield. It is a possibility, but it is very 
difficult. And that is why looking at the overall scope of what 
jobs are needed for a coin or counter-insurgency operation is 
going to be most effective.
    We discussed a lot of this, too, and I draw back to another 
one of our reports appropriately titled, ``A Breaking 
Military,'' that I would be happy to share with you today where 
we look at these number factors. We look at where the end 
strengths will be and the impact that lengthy deployments will 
have on individuals and, again, their families.
    Mrs. Davis. Thank you. Thank you. I appreciate that. It 
really departs a little bit from some of the specifics here, 
but we have such a great group of witnesses, and I wanted you 
to be able to comment.
    Mr. McHugh, do you want to go on, and I will come back and 
do a few other questions?
    Mr. McHugh. Mr. Becker, in your comments--I may miss a word 
or two of the quote here, but I think I got it pretty quickly. 
You summed up and said we should be aware of what you called 
shortsighted initiatives disguised by innovation. Do you recall 
that?
    Mr. Becker. I do.
    Mr. McHugh. Whatever do you mean?
    Mr. Becker. In my several years in this industry, sir, I 
have had the opportunity to witness what were some very 
creative efforts to alter the benefit. And in some instances 
they have included initiatives to alter the composition of the 
commissary benefit by, for example, increasing the surcharge to 
effectively offset the costs of the commissary to an increased 
extent on the backs of the patrons.
    And I think I understand the ingenuity behind it. But I 
would caution that the consumers at the other end of that 
equation would very quickly figure out what had happened and 
that its creativity would be overwhelmed by its failures.
    I think likewise there have been efforts to consolidate 
exchanges in a forced manner with a belief that what is bigger 
is better. And I am not sure that in my commercial experience 
there is evidence of that. And I know for certain it is back to 
the people factor that I noted in my last comments. A lot of 
the folks who are working in this channel of commerce separate 
from being a delivery system are people who have an affinity 
for the community they are serving.
    And an enterprise made up of people who are committed to 
the end users can lose the spirit that they bring to work every 
day if they are forced into a machine designed by someone 
elsewhere. And so, in those two instances I think were raised 
as ideas with all good intent, but without experience close at 
hand to the business itself.
    Mr. McHugh. Thank you.
    Mr. Johnson, you used the phrase out-of-the-box thinking. 
You encouraged us to use that. Do you have any out-of-the-box 
thoughts for us, suggestions?
    Mr. Johnson. I do. With regards to the commissary benefit 
and getting greater outreach to Guard and Reserve, greater use 
of the Internet, some off-site caselot sales to Guard and 
Reserve units, maybe even mobile-type stores in an armory-type 
unit, to reach out to those Guard and Reserve families who are 
not necessarily close to a military base.
    Mr. McHugh. Thank you. I have got a few moments here, so I 
am just trying to remember. I think it was Mr. Bowers. In your 
statistics in your presentation, your written presentation, you 
talked about 20 percent of the troops in Iraq identify as going 
to seek a divorce. Did I hear that correctly?
    Mr. Bowers. Yes.
    Mr. McHugh. And I truly don't know, and I am just curious. 
Do you know what the rate is for non-deployed troops that will 
seek divorce? Or is that not the kind of thing we ask people? I 
don't know.
    Mr. Bowers. For non-deployed troops, I know that the rate 
is higher than the national average. But in no way, shape or 
form is it anywhere near that amount.
    Mr. McHugh. So if you are deployed, that 20 percent figure 
is higher than it would be if you were not?
    Mr. Bowers. Yes. And I have also found that with multiple 
deployments this is having an increasing impact whereas the 
percentage rate goes up per deployment.
    Mr. McHugh. Right. But would it be possible to get some 
data on that, if you have a chance?
    Mr. Bowers. I would be more than happy to.
    Mr. McHugh. Great.
    Mr. Bowers. Again, for the third time, I am going to fall 
back on one of our--little reports----
    Mr. McHugh. That is fine. That is fine. If that is in 
there, that is great.
    Mr. Bowers. Yes, sir.
    Mr. McHugh. And let me ask the question about another 
reference. And you may choose to give the same answer, and that 
is fine as well.
    You talked about in the mental health area there are 
presently 19 percent of returning troops self-identify as 
having a mental health problem. And yet in the study you 
noted--within the year 35 percent actually seek mental health 
care.
    Did that study, do you know--and if you don't, maybe you 
could find, was 35 percent totally the result of the 
deployment? In other words, it is certainly possible for 
someone to come back, not have a mental health problem and a 
year later have a mental health problem that had absolutely 
nothing to do. I mean, that happens in the Congress all the 
time with going away. So is that 35 percent deployment-related, 
or is it a percentage?
    Mr. Bowers. Yes, those numbers are actually derived from a 
GAO study that was done on the effectiveness of the PDHA and 
the PDHRA.
    Mr. McHugh. Okay.
    Mr. Bowers. So the only individuals that were incorporated 
in those numbers were individuals who actually filled out the 
PDHA and the PDHRA.
    Mr. McHugh. No, I understand that. I apologize for not 
making myself clear. Within a year 35 percent then say I have a 
mental health problem, I need care. I am curious are all of 
those 35 percent then seeking mental health care and counseling 
because of the deployment? A lot of things can cause you to 
seek mental health care other than rooted in the deployment.
    Mr. Bowers. Yes, and I believe I can find that out for you 
most definitely.
    Mr. McHugh. Okay, great.
    Mr. Bowers. But I would say that those numbers are 
increased greatly by the sheer impact that combat deployment 
makes on----
    Mr. McHugh. I have no doubt.
    Mr. Bowers. Yes.
    Mr. McHugh. I am just curious. Because as we pursue this, 
it is going to come up, so it would be better to have the 
answer before.
    Mr. Bowers. Definitely.
    Mr. McHugh. That is all I am saying. I have no doubt about 
that. I am not challenging you at all. I am just curious how 
the data breaks out.
    Mr. Bowers. Yes. And I would be more than happy to--we have 
been punching numbers until midnight the past few days. So----
    Mr. McHugh. Okay? Terrific. Thank you. Believe me, I 
understand. Thank you very much.
    And thank you all.
    Thank you, Madam Chair.
    Mrs. Davis. Thank you.
    Ms. Boyda.
    Mrs. Boyda. Yes, actually I would like to just make a few 
comments, one I should have said earlier. But I just came off 
the floor, and Representative Edwards and I had offered an 
amendment that, I think, will be passed. It says in-state 
tuition for all of our active duty, no matter if you get moved 
or whatever. Once you start, you have got in-state tuition.
    So I just thought you might want to be letting your members 
know that we expect that to be passing whenever we get back 
here. We will vote on that, and that should be good to go.
    And then, Kathy, I would just like to congratulate you on 
the Purple Camps and how it just keeps on moving up and they 
are doing more and more. Some longitudinal data and really 
looking at, not only what is going on with our families, but 
what is actually impacting our families adversely and 
positively and collecting that data in a very, you know, 
rigorous manner. So it is exciting.
    And I hope everybody is as supportive as they can be for 
all the money that goes into it. And you guys have pulled it 
off. So thank you very much.
    Mrs. Moakler. Thank you.
    Mrs. Boyda. I would like to go back just to the issue of 
what we were kind of talking about a little bit earlier, too. 
And that is the one to one deployments that we have been 
keeping on talking about. And it sounds as if the one to one 
deployments everybody says gee, that is a really good idea. I 
hope we can get there soon.
    And there isn't a lot of clarity yet about what soon means. 
But, you know, would you all weigh in on what you would 
recommend to Congress, to the DOD, to the Secretary of Defense? 
If we don't get one to one deployments any time, you know, 
within the next few months, what does that mean?
    Colonel Strobridge. That is a hard question. Maybe I will 
try.
    Mrs. Boyda. Thank you.
    Colonel Strobridge. I think the answer is that the 
committee is already trying as fast as you can. End strength 
increases--that is the key thing. We realize there is 
limitations on the possible. We were asking before what are the 
indications of problems. To me, you know, we are becoming deaf 
from alarm bells and warning sirens, it seems like.
    You know, when we have the Department of Defense saying if 
you were meeting our retention and recruiting goals--I am 
saying, at what cost. Look at the bonuses that we have to give 
to people to get them to stay. Look at what is happening to the 
families that we all know we kind of get, you know, deluded by 
the possible, I guess, you know.
    I don't think anybody at this table would say one to one is 
what we want for the force for the long term or even 
necessarily one to three. The first time we heard the Army talk 
about one to three about five or six years ago, most of us 
looked around the room and said, ``Good grief, that is way more 
than we ever had.'' You know, one to three would cause huge 
retention problems.
    And I think we are amazed that even with the bonuses 
retention is as good as it is today. And I think that tells you 
probably what Todd will tell you, that people are going to save 
their buddies because they know somebody else is going to have 
to go if they don't.
    You know the answer. You are trying to do it as much as you 
can. We all feel the same pain, I think.
    Mrs. Boyda. Are you part of that voice then again, saying 
this needs to be done sooner than later?
    Colonel Strobridge. Absolutely. The biggest thing that we 
are concerned about, very frankly, for the long run is people 
saying, ``Gee, if we manage to draw down the forces in Iraq, 
maybe we won't have to plus up the Army.''
    But to us, we need to plus up the Army no matter what. The 
lesson that we learned from this one is that we didn't have 
enough troops to fight a major war. You never know when a major 
war is coming. We need to be better prepared for the next one 
than we were for this one.
    Mrs. Boyda. Thank you.
    Todd, did you have something?
    Mr. Bowers. I would just agree with that. When I mentioned 
to my mother that I might be going back for my third tour and 
she was choking me, it was hard for me to convey to her that 
the reason being is that I am going because my Marines are 
going. And that is the final issue. If they go, I go. There is 
no questions asked.
    And it is going to be an honor to go back for a third time. 
But I think that with these increased numbers that we all have 
sort of been in agreement on here, you know, it is going to 
make a stronger fighting force and give us more time to train, 
re-up, and be ready for the next fight.
    Mrs. Boyda. When I am out in my communities and questions 
like this or comments like this come up, I try very much to say 
that many of our families are doing just fine. You know, that 
no matter how many times they have been deployed, they are 
going to go back out there and do what it takes. And they are 
doing just fine.
    And many of them aren't. But I try to make sure that I 
differentiate that a lot of families out there that don't want 
to be brought into this conversation--everything is fine and 
they will do whatever it takes for however long it takes. And 
many of them aren't. So this is like most things. It is a mixed 
bag. You need to be sensitive to situations. But again, thank 
you for your answers.
    Mrs. Davis. Thank you.
    And, Ms. Shea-Porter.
    I am sorry. Dr. Snyder?
    Dr. Snyder. Thank you.
    Mrs. Moakler, I appreciate your attention today to children 
of our military families. A couple of weeks ago a family member 
returned from his second tour to Iraq. His Air Force tour was a 
four-month tour. It was the second time he went. Both times he 
was gone his wife has been pregnant.
    So this time when he returned, we were all out at the 
airport with balloons and signs. And his little toddler was out 
there. I think he is four years old, although I am embarrassed 
I can't remember.
    But, you know, when you see people come off the plane and 
there is the husband and the wife hugging and the 
congratulations and all, that moment when the little boy went 
over to be with his daddy, I almost felt like that was a 
private moment that it was so poignant. You know, that I felt 
like I didn't mind watching him kiss his wife.
    But I felt like that moment with the little boy was just so 
private and so important that it really brought home to me how 
important those relationships are and how important they are to 
families. And anyway, I appreciate it. That is just a long way 
of saying I appreciate your attention to children.
    I want to go back to this issue of the G.I. bill and, Mr. 
Bowers, maybe give you a chance and anyone else that wants to 
comment. I have got questions I am saving for this end of the 
table, too. But, Mr. Bowers, if you want to comment on the 
issue of the G.I. bill and this jurisdiction or anything else 
that you want to talk about. Because you mentioned that in your 
discussions also.
    Mr. Bowers. As I mentioned before, the G.I. bill is 
something that we are going to be really focusing on this year. 
It is one of our top priorities. I can tell you that probably 
about 80 percent of our membership that we have been talking to 
has a tremendously difficult time with getting through college. 
I relate that to the amount of deployments that individuals are 
using.
    And we do stand by--we would love to see a picture perfect 
Montgomery G.I. bill similar to S.22, Senator Webb's Montgomery 
G.I. bill for the 21st Century. And I attribute that to a 
partnership that we had with the VFW where we took Iraq and 
Afghanistan veteran members and also VFW members who had served 
in the Vietnam War and met with different offices and said, I 
served three tours, a cumulative of 3.5 years active duty next 
to the Vietnam veteran who served roughly one year.
    And then we compared how much each of us pays by the 
numbers for college. And the varying differences were 
incredible. And so, we do stand by that we would love to see it 
updated to at least what it once was to be more efficient.
    Dr. Snyder. The challenge you are going to have is your 
membership is both active component and reserve component 
member. Correct?
    Mr. Bowers. Exactly.
    Dr. Snyder. And I think the challenge that you are going to 
have is what are you going to do when either on the veterans 
side we are able to deal with the active component veterans and 
raise that G.I. bill benefit--and if we are able to do that, I 
think the great likelihood is it will be difficult for the 
reserve component benefit to follow through this committee 
because we already have budget issues with the guard to the 
present budget proposal and how we fund things or to place 
catch-up in reserve component. Some of us would think that 
ought to be the first step.
    And so, it just seems like this issue of the jurisdiction 
is going to--I mean, I applaud the laudatory goal you have 
stated. But I think the practicality is it is going to be--we 
have got some difficult terrain to get through anyway. And to 
deal with the jurisdiction issue makes it even harder. Has your 
organization thought through this issue of reserve component 
versus active component?
    Mr. Bowers. We have. And we have often looked at the idea 
of recodification under Title 38 and seeing if that is the most 
effective measure. And that is something that we are still 
looking at to see is that something that would be beneficial. I 
know that we do say that we don't see the G.I. bill 
specifically as a retention tool because if you serve four 
years versus 16 years, your benefits are still the same.
    Dr. Snyder. Right.
    Mr. Bowers. So when we hear that debate, that many times 
comes up, we don't feel that that is exactly realistic.
    Dr. Snyder. I think the only people that actually see the 
G.I. for reserve component as being only a retention tool is a 
very small group of high ranking civilians in the Pentagon.
    Mr. Bowers. Yes.
    Dr. Snyder. I think almost everybody else does not agree 
with that.
    I wanted to, before my time runs out, at this end of the 
table--would somebody give me my annual update on fresh 
produce?
    Mr. Becker. I think your original interest in fresh produce 
stemmed from a personal experience in witnessing that 
particular category and how it was treated in a particular 
commissary.
    Dr. Snyder. Mold.
    Mr. Becker. I am of the belief that there are probably 
other experts----
    Dr. Snyder. Actually, no, that is not true, if I might 
correct you. It came from a hearing right here.
    Mr. Becker. Is that right?
    Dr. Snyder. I think it was a Marine gunnery sergeant who, I 
think, John, had come back from overseas and somebody asked him 
do you have any problem with--what have you heard from your 
family. And he said my wife thinks the produce is bad.
    So then a week or two later, I went out to Little Rock Air 
Force Base and looked at their produce. And it was worse than 
what his wife thought their produce was. But it started right 
there at that table. In fact, he was sitting right where you 
are, I think, Mr. Becker.
    Mr. Becker. Well, I can't forego the opportunity to let you 
know how--what an impact you have had on the commissary system 
in the fact that--I think one of the greatest success stories 
in the last couple of years is the tremendous progress that has 
been made in the area of produce. Sales prove it. Customer 
satisfaction proves it. So the long arm of Congress has touched 
the commissary system once again.
    Dr. Snyder. Good. Thank you.
    Mrs. Davis. Thank you.
    Mr. McHugh. If I may, if the gentleman will yield. I would 
note, however, you have not had similar success with your 
annual interest in tattoos.
    Dr. Snyder. No, no, not impacting the tattoo policies at 
all.
    Mr. McHugh. No, 50 percent is pretty good.
    Mrs. Davis. Ms. Shea-Porter. And then we will go to Mr. 
Jones.
    Ms. Shea-Porter. Thank you. I have to laugh because I had a 
relative who ran the commissaries in Europe years ago, and 
nothing has changed. This sounds familiar to conversations from 
decades ago.
    Anyway, what I wanted to ask, please, Colonel Strobridge, I 
wanted to talk to you a little bit about what I heard yesterday 
in the HASC hearing with Secretary of Defense Gates and your 
reference to some of the health care issues, TRICARE 
specifically. I was looking at the defense budget yesterday, 
and they are looking for efficiencies and ways that they plan 
to save money and said that, really, it is a monkey on their 
backs how much the cost of health care is.
    And then I listened to your reference about TRICARE and the 
fees, the increase in fees. And I wanted to have you take the 
opportunity to talk about it for a moment or two and if you 
think any of the fees should be raised and if not, if you have 
any other ideas.
    Colonel Strobridge. Yes, ma'am. Number one, we think DOD is 
vastly overstating the concern about the cost bogey relative to 
the rest of America. When health care is 15 or 16 percent of 
the national economy and we are worried about the defense 
budget going from 8 percent to 11 percent, from our 
perspective, gee, that is a lot better than the rest of the 
country is doing, to start with.
    Number two, one of the points that we have made 
consistently is that DOD seems a lot more interested in 
shifting costs to beneficiaries than they have been so far than 
getting more efficient themselves. The example that we use is 
the mail-order pharmacy system where DOD constantly talked 
about we need to raise co-pays in the retail system to shift 
beneficiaries to the more cost efficient mail-order system when 
they knew for six years exactly which beneficiaries were using 
which high-cost drugs and never once spent a then 37 cent stamp 
to go ask them do you realize how much money you would save if 
you used this mail-order system.
    And we offered to partner with them to do that. Our 
organization produced a brochure trying to push people to do 
that. DOD never did. And so, we have listed a bunch of 
different things that DOD could, one of which the Congress did 
last year, requiring the Federal pricing in the retail system. 
We will be very interested to see how that works on the 
dynamics of the pharmacy.
    But our view is when we have gone to talk to the Department 
of Defense whatever we proposed was that doesn't get enough 
money out of the beneficiaries, we are not interested in that. 
As a matter of fact, we were told point blank we are not 
interested in working with you. We are out to get X dollars out 
of the beneficiaries.
    Now, that was some time ago. And, as I said, to Dr. Kassels 
credit, he has reached out to the beneficiaries more. And we 
are optimistic we will get some progress on those kinds of 
things. But to us we certainly have a long way to go.
    I think one of the things that we overlook is that the 
military system is inherently inefficient. The mission of the 
military medical system is war, wartime readiness. When we 
deploy the doctors and then have to shift all the beneficiaries 
to the private sector, we can't complain that the beneficiaries 
are costing more money.
    You know, when you close down access to military facilities 
and push people out to the retail pharmacies or we close 
installations so that people no longer live next to military 
pharmacies, we can't complain that somehow the beneficiaries 
are costing more money. When Congress says that it is wrong for 
military retirees over 65 to be thrown out of their military 
health care benefit and we are going to authorize them TRICARE 
For Life and TRICARE Senior Pharmacy, which we did in 2001, it 
is wrong, in our view, to come back and then use the numbers 
and say, ``My gosh, look how much costs have increased since 
2001.''
    Congress knew that. We knew it was going to happen. We did 
it intentionally. It was no surprise.
    Ms. Shea-Porter. Before I run out of time, let me ask you a 
quick question. When my husband was in the military, we had 
very easy access. We didn't have TRICARE. We just went and got 
what we needed. Are there people making decisions now not to 
fill prescriptions because, in spite of the benefit, they still 
don't have the money to make up the gap? Do you know that 
people are actually refusing or are unable to accept service or 
a pharmacy prescriptions that they need?
    Colonel Strobridge. I am sure there are some older people 
who have many medications doing that.
    Ms. Shea-Porter. Okay.
    Colonel Strobridge. The military co-pays for pharmacy right 
now, I have to say, are pretty reasonable. When you start going 
from $9 to $25 or to $45 because we are pushing more and more 
medications to the non-formulary and you have older people who 
take a lot of medications, that is a lot of money that we are 
asking people to--and as I have said--and I have some 
statistics that we went out and got from private sector 
surveys, if the subcommittee is interested.
    The pharmacy benefit proposals they are offering, they are 
recommending in the budget are worse than most civilian plans. 
And to us, if one of the purposes of the health care system is 
to say if you served 20 or 30 years under these adverse 
conditions, we will give you one of the best deals in America, 
that is not it.
    Ms. Shea-Porter. Thank you.
    Mrs. Davis. Thank you. I might just mention it would be 
interesting to me and I am sure the committee if you have some 
suggestions that you have put forward that you feel have been 
ignored, you know, dismissed, even if they have what may be 
seen as a marginal impact, I think we would be interested in 
looking at them.
    Colonel Strobridge. We will be more than happy to provide 
those for the record.
    Mrs. Davis. It is the cumulative impact. And that would be 
good to see. One of the things that we are going to do is have 
an opportunity in members' districts to talk about health care 
at length. And I would be interested in some of those 
suggestions.
    Colonel Strobridge. Yes, ma'am. You know, if I can offer 
just a couple of modest examples that are just incredible to 
us, one of the worst things that you can do is smoke for your 
future health. And yet TRICARE doesn't pay for smoking 
cessation services. You know, what kind of no-brainer is that?
    Mrs. Davis. Thank you.
    Mr. Jones.
    Mr. Jones. Madam Chairman, thank you. I wanted to be here 
earlier because of this panel and many friends, and I see new 
faces I didn't know. But I listened to you. Yesterday I had the 
Marine League, people from all around this country, men and 
women who had served in the Marine Corps coming in talking 
about their issues.
    And I hope, Madam Chairman--I don't know who the nominee is 
going to be for the presidency. But when I look at the 
numbers--and I am not talking about your numbers. But I look at 
where this country is, where we are going, and I don't know 
where the money is going to come from.
    Yesterday Mr. Gates--I am going to use it again. I like 
him. I complimented him on being a man of integrity, something 
we didn't have prior to Mr. Gates, quite frankly. That is my 
opinion.
    But we are providing the blood and the money. And I was 
enraged last week to read in USA Today of how those who were 
supposed to be our allies are not meeting their pledge. So 
these people who are not sending any of their troops to fight--
primarily the Middle East, the Saudis, and others--had agreed 
to a pledge of $15.8 billion to help rebuild Iraq. As of this 
time, they have paid $2.5 billion.
    This country, America, has already spent $46 billion to 
rebuild Iraq. And, Madam Chairman, whomever this President is, 
he, she or it, I don't know who it is going to be. But there 
has got to come a time that this country says to those who are 
getting rich and rich because they are charging us $87 for a 
barrel of oil--so the American taxpayer is paying for it.
    The American taxpayers' sons and daughters are dying and 
losing their legs. Many are going to come back and be retired 
like many of you at this table.
    And when I hear what you are asking for--and you should be 
able to get 95 percent of what you are asking for. But if this 
country doesn't understand that borrowing money from foreign 
governments to pay our bills means we do less for the American 
people and those who have worn the uniform. And I didn't come 
down here to be outraged. I just came down here to, quite 
frankly, listen to you knowing that what you are asking for we 
ought to be able to accommodate 75 to 80 percent.
    But when you are trying to police the world and nobody is 
helping you pay the bill, it is coming out of your programs. 
And I hope and pray that the next President and those of us in 
Congress in both parties will come back to understand that a 
country that is in financial trouble like this country better 
get on sound footing and start taking care of its people first 
before we take care of everybody else.
    And I don't have a question to ask. I am familiar with some 
of these issues. I just want to vent and show my frustration in 
your behalf, quite frankly. Thank you.
    Mrs. Davis. Thank you. Thank you, Mr. Jones.
    I wonder if I could just turn to you for a second, Mr. 
Bowers, and talk a little bit about the mental health issues.
    Mr. Bowers. Yes, ma'am.
    Mrs. Davis. And you have mentioned how important it is to 
reduce the stigma for servicemembers. And, in fact, there have 
been some programs, I think, that have been put in place of 
retained teaching to try and help commanders as well as kind of 
a peer teaching program. But I don't know that that has really 
been implemented yet in a way that we would see any true 
results at this point.
    Could you tell us if you think--is that a proper way to go, 
to educate, when people come into the services early enough or 
before they deploy? And when it comes to families, I was 
talking to some people involved with wounded warriors one day 
in my office. And we were talking a little bit about the 
education and training because some of the troops that I have 
met with at Balboa had said, you know, we need to do this 
really early. We need to understand these issues so that they 
see it in themselves and others.
    And I was told you don't want to, you know, deal with that 
too early because families are too nervous when their loved one 
is deployed. So bringing up the importance of understanding 
these mental health issues too early could, you know, be 
difficult.
    Mr. Bowers. Exactly.
    Mrs. Davis. What would you say to that? I mean, how early 
should this education begin? What part of the deployment 
process should it be part of? And how do we best inform 
families as well? Is that earlier, or is it after the fact? You 
know, really early.
    And let me just follow up one or two quick questions. You 
said that you thought a coordinated approach to suicide 
prevention would be more effective than the current programs, 
which really are by individual services. And I wonder if you 
could comment on that, whether we need to do that in a 
coordinated way or more separate.
    And the other issue really is whether or not the changes 
that we are talking about in having, you know, early screening 
and whatever--do we need time to really see if they are 
working? Or should we be talking about expanding programs early 
or doing something different? You know, how much time would you 
assess we should wait in order to see if something has actually 
taken hold?
    Mr. Bowers. Well, I think I relate this to the reason we 
would like to see mandatory pre- and post-deployment screening 
is that because then that reduces the stigma hands down. I 
connect this to in the late 1980's when we required all members 
of the branches of service to start taking mandatory drug 
testing. Before then, individuals were called in to take either 
a urine analysis or a blood sample, and the stigma began, and 
people started talking and saying, hey, sergeant so and so is 
doing drugs because he just got called in to do testing.
    It wasn't until we required everybody to do it that that 
stigma vanished. It was no longer a thought that if you are 
called in to do drug testing that you are using drugs. That 
cuts that element away right there.
    I look at this, honestly, as a cost savings plan. If we can 
do it before and after their deployment and know the exact 
impact that is there, then we know it has happened.
    Your comment about when do we start training these 
individuals--I would like to see--and something that we have 
discussed is I would like to see more integrated programs with 
combat medics and corpsmen that are the individuals that are on 
the front lines to be able to recognize combat stress. These 
are the individuals that are there on the ground. And they are 
the ones that can be prepared to handle a lot of these issues.
    I tell my Marines regularly that I am not a mental health 
expert, by any means. But I can tell when one of my Marines is 
in trouble.
    As things are laid out now, we are required to self-
diagnose. I don't know when I am having a hard time. But the 
people that do know once I return home are the families. They 
are the first line of defense. And what better time than when 
an individual is deployed to begin training programs with the 
family to help recognize this?
    There are programs--and I am sure National Military Family 
Association (NMFA) can comment on this more accurately. But 
there are training programs right now for individuals. There is 
key volunteer programs. There is the battle-mind training, a 
program that the Army has instituted approximately 18 months 
ago where they are addressing these issues. But by being able 
to recognize it right when individuals need it the most is 
going to be the most effective way.
    In regards to suicide prevention, we have been extremely 
pleased to see the Department of Veterans Affairs establish a 
suicide prevention hotline. We have seen the branches of 
service do suicide training. For National Guardsmen and 
Reservists, though, this is a very difficult task.
    We get the opportunity to see these individuals once every 
30 days, and that is it. It is hard to assess whether someone 
really needs to be reached out to to get help.
    With that said, I would love to see a DOD-wide sort of 
survey or program or report to find out what the most effective 
measures are. Currently I really do believe the Air Force has 
done that. Based on their numbers, that they have seen a 30 
percent reduction in suicide with their programs.
    If DOD was able to harness the successes that the Air Force 
has had and spread that Marine Corps-wide--excuse me, can you 
tell I am playing favoritism here? If they go DOD-wide with a 
lot of these initiatives, we are going to be extremely 
beneficial in the long run.
    Mrs. Davis. Thank you.
    Mrs. Moakler, did you have a quick response in terms of 
families? As I said, it was suggested to me that if you talk 
about this too early, people are just going to be scared even 
more than they are.
    Mrs. Moakler. I think families need to be educated so that 
they are enabled to take care of their own quality of life, to 
address their own issues without any kind of doom and gloom, 
like this is exactly how you are going to feel. I think they 
need to be educated about how these feelings are natural. You 
are going to encounter a certain amount of stress.
    Todd mentioned battle-mind. There is a spouse battle-mind. 
DOD has come up with fact sheets on military home fronts and 
deployment health websites that are easy to read, that families 
can look at and say, ``You know, maybe I am feeling a little 
bit like that. No, it is not terrible to feel that way.''
    But I can call military one source and get some counseling 
to help me deal with some stresses that I might be going 
through with deployment or my children might be going through 
with deployment. NMFA itself--we are going to be launching a 
military health component of our website with a vast resource 
link page to make it easier for military families to, as a 
matter of course, look into these things for themselves. And 
military families are already doing that because they are 
looking at the web for mental health resources.
    Mrs. Davis. Thank you. And as you can see, we are into a 
third round, which is unusual. We are usually running with 
votes. There we go.
    But, Dr. Snyder, do you want to jump in?
    I am sorry. Mr. McHugh, go ahead.
    Mr. McHugh. Don't be sorry. I am going to feel sorry for 
these panelists and say, look, we have had two hours, round of 
questioning, a call for votes, extensive testimony. If I have 
any further questions, I will submit it for the record. But 
thank you all, as I tried to indicate in the opening statement, 
my opening statement, for what you do.
    And, you know, Colonel, you mentioned your efforts through 
your organization to try to prioritize and work with us. And I 
want to underscore that wasn't just you talking. You live that, 
and all of your organizations have been leaders and very, very 
helpful to me and I think I can confidently say to everyone on 
this panel. So keep up the great work. Thank you.
    Mrs. Davis. Thank you.
    And, Dr. Snyder, you said you did have a question. Please, 
go ahead.
    Dr. Snyder. It is really not a question. This topic came up 
on the other side, the Veterans Committee today, in that there 
has been some discussion about the New York Times series on 
veterans who had come back and had committed crimes. This whole 
issue of how you discuss this issue, I think, has become 
something important. And I, in the spirit of time, think I will 
just say we can talk about divorce rates and all those kind of 
things. The bottom line is the great majority of people who 
come back do very, very well.
    The problem is that from the outside it may be appearing 
that they are feeling very, very well and they may just be 
miserable. But they may be performing well. They are good with 
their kids. They are doing their job. But life is not the same.
    And I think what we are talking about is how do you 
alleviate, in the spirit of friendship, human misery of people, 
the great majority of whom, are functioning reasonably well. 
And I don't know how we get around this issue of being 
advocates for additional mental health services without over-
dramatizing it. But that is what we have been trying to do here 
for the last year or two or three.
    Mrs. Davis. Thank you. And I would say that I believe that 
we will be having a whole panel on mental health as we follow 
up with the year. So we will have more focus on that.
    Ms. Shea-Porter, do you have a question or comment?
    Ms. Shea-Porter. I just wanted to say that later today I 
will be making a statement on the floor about a young man who 
died in my district recently and left behind a seven-month-old 
and a wife and a grieving family and community. And this is 
what this is really all about, that each one who serves our 
country takes that risk and every member of the family takes 
that risk with him or with her.
    And so, it is our commitment here in a bipartisan effort to 
make sure that you have what you need and that we say thank you 
in the right way to all of you and to those who serve us each 
day. So I just wanted to say thank you.
    Mrs. Davis. Thank you. Without objection, I just want to 
read this into the record. I ask unanimous consent to include 
the following written testimonies: Mr. Peter Duffy, Deputy 
Director, Legislation, National Guard Association of the United 
States; Ms. Rose Elizabeth Lee, Chair, Government Relations 
Committee, Gold Star Wives of America, Incorporated; statement 
from the Reserve Officers Association of the United States; and 
statement from the Naval Reserve Association. All those will be 
part of the record.
    I want to thank all of you for submitting them. I want to 
thank this wonderful panel for being here today. We greatly 
appreciate all of your input. And we will look forward to 
working with you in the future. Thank you very much.
    [The information referred to can be found in the Appendix 
on pages 187, 195 and 205.]
    [Whereupon, at 4:54 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            February 7, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 7, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3248.001
    
    [GRAPHIC] [TIFF OMITTED] T3248.002
    
    [GRAPHIC] [TIFF OMITTED] T3248.003
    
    [GRAPHIC] [TIFF OMITTED] T3248.004
    
    [GRAPHIC] [TIFF OMITTED] T3248.005
    
    [GRAPHIC] [TIFF OMITTED] T3248.006
    
    [GRAPHIC] [TIFF OMITTED] T3248.007
    
    [GRAPHIC] [TIFF OMITTED] T3248.008
    
    [GRAPHIC] [TIFF OMITTED] T3248.009
    
    [GRAPHIC] [TIFF OMITTED] T3248.010
    
    [GRAPHIC] [TIFF OMITTED] T3248.011
    
    [GRAPHIC] [TIFF OMITTED] T3248.012
    
    [GRAPHIC] [TIFF OMITTED] T3248.013
    
    [GRAPHIC] [TIFF OMITTED] T3248.014
    
    [GRAPHIC] [TIFF OMITTED] T3248.015
    
    [GRAPHIC] [TIFF OMITTED] T3248.016
    
    [GRAPHIC] [TIFF OMITTED] T3248.017
    
    [GRAPHIC] [TIFF OMITTED] T3248.018
    
    [GRAPHIC] [TIFF OMITTED] T3248.019
    
    [GRAPHIC] [TIFF OMITTED] T3248.020
    
    [GRAPHIC] [TIFF OMITTED] T3248.021
    
    [GRAPHIC] [TIFF OMITTED] T3248.022
    
    [GRAPHIC] [TIFF OMITTED] T3248.023
    
    [GRAPHIC] [TIFF OMITTED] T3248.024
    
    [GRAPHIC] [TIFF OMITTED] T3248.025
    
    [GRAPHIC] [TIFF OMITTED] T3248.026
    
    [GRAPHIC] [TIFF OMITTED] T3248.027
    
    [GRAPHIC] [TIFF OMITTED] T3248.028
    
    [GRAPHIC] [TIFF OMITTED] T3248.029
    
    [GRAPHIC] [TIFF OMITTED] T3248.030
    
    [GRAPHIC] [TIFF OMITTED] T3248.031
    
    [GRAPHIC] [TIFF OMITTED] T3248.032
    
    [GRAPHIC] [TIFF OMITTED] T3248.033
    
    [GRAPHIC] [TIFF OMITTED] T3248.034
    
    [GRAPHIC] [TIFF OMITTED] T3248.035
    
    [GRAPHIC] [TIFF OMITTED] T3248.036
    
    [GRAPHIC] [TIFF OMITTED] T3248.037
    
    [GRAPHIC] [TIFF OMITTED] T3248.038
    
    [GRAPHIC] [TIFF OMITTED] T3248.039
    
    [GRAPHIC] [TIFF OMITTED] T3248.040
    
    [GRAPHIC] [TIFF OMITTED] T3248.041
    
    [GRAPHIC] [TIFF OMITTED] T3248.042
    
    [GRAPHIC] [TIFF OMITTED] T3248.043
    
    [GRAPHIC] [TIFF OMITTED] T3248.044
    
    [GRAPHIC] [TIFF OMITTED] T3248.045
    
    [GRAPHIC] [TIFF OMITTED] T3248.046
    
    [GRAPHIC] [TIFF OMITTED] T3248.047
    
    [GRAPHIC] [TIFF OMITTED] T3248.048
    
    [GRAPHIC] [TIFF OMITTED] T3248.049
    
    [GRAPHIC] [TIFF OMITTED] T3248.050
    
    [GRAPHIC] [TIFF OMITTED] T3248.051
    
    [GRAPHIC] [TIFF OMITTED] T3248.052
    
    [GRAPHIC] [TIFF OMITTED] T3248.053
    
    [GRAPHIC] [TIFF OMITTED] T3248.054
    
    [GRAPHIC] [TIFF OMITTED] T3248.055
    
    [GRAPHIC] [TIFF OMITTED] T3248.056
    
    [GRAPHIC] [TIFF OMITTED] T3248.057
    
    [GRAPHIC] [TIFF OMITTED] T3248.058
    
    [GRAPHIC] [TIFF OMITTED] T3248.059
    
    [GRAPHIC] [TIFF OMITTED] T3248.060
    
    [GRAPHIC] [TIFF OMITTED] T3248.061
    
    [GRAPHIC] [TIFF OMITTED] T3248.062
    
    [GRAPHIC] [TIFF OMITTED] T3248.063
    
    [GRAPHIC] [TIFF OMITTED] T3248.064
    
    [GRAPHIC] [TIFF OMITTED] T3248.065
    
    [GRAPHIC] [TIFF OMITTED] T3248.066
    
    [GRAPHIC] [TIFF OMITTED] T3248.067
    
    [GRAPHIC] [TIFF OMITTED] T3248.068
    
    [GRAPHIC] [TIFF OMITTED] T3248.069
    
    [GRAPHIC] [TIFF OMITTED] T3248.070
    
    [GRAPHIC] [TIFF OMITTED] T3248.071
    
    [GRAPHIC] [TIFF OMITTED] T3248.072
    
    [GRAPHIC] [TIFF OMITTED] T3248.073
    
    [GRAPHIC] [TIFF OMITTED] T3248.074
    
    [GRAPHIC] [TIFF OMITTED] T3248.075
    
    [GRAPHIC] [TIFF OMITTED] T3248.076
    
    [GRAPHIC] [TIFF OMITTED] T3248.077
    
    [GRAPHIC] [TIFF OMITTED] T3248.078
    
    [GRAPHIC] [TIFF OMITTED] T3248.087
    
    [GRAPHIC] [TIFF OMITTED] T3248.088
    
    [GRAPHIC] [TIFF OMITTED] T3248.089
    
    [GRAPHIC] [TIFF OMITTED] T3248.090
    
    [GRAPHIC] [TIFF OMITTED] T3248.091
    
    [GRAPHIC] [TIFF OMITTED] T3248.092
    
    [GRAPHIC] [TIFF OMITTED] T3248.093
    
    [GRAPHIC] [TIFF OMITTED] T3248.094
    
    [GRAPHIC] [TIFF OMITTED] T3248.095
    
    [GRAPHIC] [TIFF OMITTED] T3248.096
    
    [GRAPHIC] [TIFF OMITTED] T3248.097
    
    [GRAPHIC] [TIFF OMITTED] T3248.098
    
    [GRAPHIC] [TIFF OMITTED] T3248.099
    
    [GRAPHIC] [TIFF OMITTED] T3248.100
    
    [GRAPHIC] [TIFF OMITTED] T3248.101
    
    [GRAPHIC] [TIFF OMITTED] T3248.102
    
    [GRAPHIC] [TIFF OMITTED] T3248.103
    
    [GRAPHIC] [TIFF OMITTED] T3248.104
    
    [GRAPHIC] [TIFF OMITTED] T3248.105
    
    [GRAPHIC] [TIFF OMITTED] T3248.106
    
    [GRAPHIC] [TIFF OMITTED] T3248.107
    
    [GRAPHIC] [TIFF OMITTED] T3248.108
    
    [GRAPHIC] [TIFF OMITTED] T3248.109
    
    [GRAPHIC] [TIFF OMITTED] T3248.110
    
    [GRAPHIC] [TIFF OMITTED] T3248.111
    
    [GRAPHIC] [TIFF OMITTED] T3248.112
    
    [GRAPHIC] [TIFF OMITTED] T3248.113
    
    [GRAPHIC] [TIFF OMITTED] T3248.114
    
    [GRAPHIC] [TIFF OMITTED] T3248.115
    
    [GRAPHIC] [TIFF OMITTED] T3248.116
    
    [GRAPHIC] [TIFF OMITTED] T3248.117
    
    [GRAPHIC] [TIFF OMITTED] T3248.118
    
    [GRAPHIC] [TIFF OMITTED] T3248.119
    
    [GRAPHIC] [TIFF OMITTED] T3248.120
    
    [GRAPHIC] [TIFF OMITTED] T3248.121
    
    [GRAPHIC] [TIFF OMITTED] T3248.122
    
    [GRAPHIC] [TIFF OMITTED] T3248.123
    
    [GRAPHIC] [TIFF OMITTED] T3248.124
    
    [GRAPHIC] [TIFF OMITTED] T3248.125
    
    [GRAPHIC] [TIFF OMITTED] T3248.126
    
    [GRAPHIC] [TIFF OMITTED] T3248.127
    
    [GRAPHIC] [TIFF OMITTED] T3248.128
    
    [GRAPHIC] [TIFF OMITTED] T3248.129
    
    [GRAPHIC] [TIFF OMITTED] T3248.130
    
    [GRAPHIC] [TIFF OMITTED] T3248.131
    
    [GRAPHIC] [TIFF OMITTED] T3248.132
    
    [GRAPHIC] [TIFF OMITTED] T3248.133
    
    [GRAPHIC] [TIFF OMITTED] T3248.134
    
    [GRAPHIC] [TIFF OMITTED] T3248.135
    
    [GRAPHIC] [TIFF OMITTED] T3248.136
    
    [GRAPHIC] [TIFF OMITTED] T3248.137
    
    [GRAPHIC] [TIFF OMITTED] T3248.138
    
    [GRAPHIC] [TIFF OMITTED] T3248.139
    
    [GRAPHIC] [TIFF OMITTED] T3248.140
    
    [GRAPHIC] [TIFF OMITTED] T3248.141
    
    [GRAPHIC] [TIFF OMITTED] T3248.142
    
    [GRAPHIC] [TIFF OMITTED] T3248.143
    
    [GRAPHIC] [TIFF OMITTED] T3248.144
    
    [GRAPHIC] [TIFF OMITTED] T3248.145
    
    [GRAPHIC] [TIFF OMITTED] T3248.146
    
    [GRAPHIC] [TIFF OMITTED] T3248.147
    
    [GRAPHIC] [TIFF OMITTED] T3248.148
    
    [GRAPHIC] [TIFF OMITTED] T3248.149
    
    [GRAPHIC] [TIFF OMITTED] T3248.150
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            February 7, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3248.079
    
    [GRAPHIC] [TIFF OMITTED] T3248.080
    
    [GRAPHIC] [TIFF OMITTED] T3248.081
    
    [GRAPHIC] [TIFF OMITTED] T3248.082
    
    [GRAPHIC] [TIFF OMITTED] T3248.083
    
    [GRAPHIC] [TIFF OMITTED] T3248.084
    
    [GRAPHIC] [TIFF OMITTED] T3248.085
    
    [GRAPHIC] [TIFF OMITTED] T3248.086
    
    [GRAPHIC] [TIFF OMITTED] T3248.151
    
    [GRAPHIC] [TIFF OMITTED] T3248.152
    
    [GRAPHIC] [TIFF OMITTED] T3248.153
    
    [GRAPHIC] [TIFF OMITTED] T3248.154
    
    [GRAPHIC] [TIFF OMITTED] T3248.155
    
    [GRAPHIC] [TIFF OMITTED] T3248.156
    
    [GRAPHIC] [TIFF OMITTED] T3248.157
    
    [GRAPHIC] [TIFF OMITTED] T3248.158
    
    [GRAPHIC] [TIFF OMITTED] T3248.159
    
    [GRAPHIC] [TIFF OMITTED] T3248.160
    
    [GRAPHIC] [TIFF OMITTED] T3248.161
    
    [GRAPHIC] [TIFF OMITTED] T3248.162
    
    [GRAPHIC] [TIFF OMITTED] T3248.163
    
    [GRAPHIC] [TIFF OMITTED] T3248.164
    
    [GRAPHIC] [TIFF OMITTED] T3248.165
    
    [GRAPHIC] [TIFF OMITTED] T3248.166
    
    [GRAPHIC] [TIFF OMITTED] T3248.167
    
    [GRAPHIC] [TIFF OMITTED] T3248.168
    
    [GRAPHIC] [TIFF OMITTED] T3248.169
    
    [GRAPHIC] [TIFF OMITTED] T3248.170
    
    [GRAPHIC] [TIFF OMITTED] T3248.171
    
    [GRAPHIC] [TIFF OMITTED] T3248.172
    
    [GRAPHIC] [TIFF OMITTED] T3248.173
    
    [GRAPHIC] [TIFF OMITTED] T3248.174
    
    [GRAPHIC] [TIFF OMITTED] T3248.175
    
    [GRAPHIC] [TIFF OMITTED] T3248.176
    
    [GRAPHIC] [TIFF OMITTED] T3248.177
    
    [GRAPHIC] [TIFF OMITTED] T3248.178
    
    [GRAPHIC] [TIFF OMITTED] T3248.179
    
    [GRAPHIC] [TIFF OMITTED] T3248.180
    
    [GRAPHIC] [TIFF OMITTED] T3248.181
    
    [GRAPHIC] [TIFF OMITTED] T3248.182
    
    [GRAPHIC] [TIFF OMITTED] T3248.183
    
    [GRAPHIC] [TIFF OMITTED] T3248.184
    
    [GRAPHIC] [TIFF OMITTED] T3248.185
    
    [GRAPHIC] [TIFF OMITTED] T3248.186
    
    [GRAPHIC] [TIFF OMITTED] T3248.187
    
    [GRAPHIC] [TIFF OMITTED] T3248.188
    
    [GRAPHIC] [TIFF OMITTED] T3248.189
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            February 7, 2008

=======================================================================

      
            QUESTIONS SUBMITTED BY MRS. DAVIS OF CALIFORNIA

    Mrs. Davis. It would be interesting to me and I am sure the 
committee if you have some suggestions that you have put forward that 
you feel have been ignored, you know, dismissed, even if they have what 
may be seen as a marginal impact, I think we would be interested in 
looking at them.
    It is the cumulative impact. And that would be good to see. One of 
the things that we are going to do is have the opportunity in members' 
districts to talk about health care at length. And I would be 
interested in some of those suggestions.
    Colonel Strobridge. I would offer the following list of initiatives 
that we believe have the potential to reduce long-term defense health 
costs, in many cases to a significant degree, without impinging on 
health benefits or beneficiaries.

      1. Authorize TRICARE coverage of smoking-cessation services 
(e.g., hypnosis, which many smokers have found successful) and 
products, which multiple studies indicate is a top-rated means of 
reducing long-term health costs.

      2. Exempt immunizations, preventive measures (e.g. mammograms, 
colonoscopies), and medications/services for chronic diseases (e.g., 
diabetes, asthma) from deductibles and co-payments to reduce long-term 
health costs (studies show even a modest co-pay deters some for using 
these services/medications, and many private sector plans are 
eliminating co-pays as participation incentives).

      3. Encourage retention of other health insurance by making 
TRICARE a true second-payer to other insurance (TRICARE now often pays 
nothing; paying the other insurance's co-pay would be far cheaper than 
having the beneficiary migrate to TRICARE).

      4. Stimulate use of lower-cost mail-order pharmacy by eliminating 
all mail-order co-pays.

      5. Change the electronic claim system to reject errors in real 
time to help providers submit ``clean'' claims and to reduce delays and 
multiple submissions.

      6. Do more to educate beneficiaries and providers on advantages 
of mail-order pharmacy; change the law to explicitly allow defense 
officials to contact beneficiaries as needed to do so, since DoD 
General Counsel indicates there are statutory limits on current 
authority to do that.

      7. Simplify TRICARE Prime referral system to reduce contractor 
overhead.

      8. Reduce TRICARE Reserve Select costs by allowing members the 
option of a government subsidy (at cost capped below cost of providing 
TRICARE) for payment of civilian employer health premiums during 
periods of mobilization; over the longer term, as deployment 
requirements ease, this would be much less costly than funding TRICARE 
coverage for members and families in non-deployed status.

      9. Reduce/eliminate DoD-unique administrative requirements that 
compel contractors to assume more overhead costs (and charge higher 
fees) than entailed in other insurance programs.

      10. Offer special care management services to beneficiaries with 
chronic and expensive conditions.

      11. Establish centralized DoD ``high-cost pharmacy'' for central 
ordering and filling of prescriptions for exceptionally high-cost drugs 
(AF model has been successful).

      12. Realign military treatment facility pharmacy budget process 
for centralized funding, with greater emphasis on accountability and 
cost-shifting/reimbursement to reduce departmental/service/
installation/facility incentives to act in ways that reduce their 
specific obligation but increase DoD costs (e.g., robbing local 
hospital funding to meet operational needs, which forces more 
beneficiaries into more expensive civilian care).

      13. Consider test of voluntary participation in Medicare 
Advantage Regional PPO to foster chronic care improvement and disease 
management programs.

      14. Size military facilities (least costly care option) to reduce 
reliance on civilian Prime networks (most costly care option) and treat 
more retirees under age 65; for example, military providers see far 
fewer patients per day than civilian providers, in part due to 
reductions in staff support, so providers have to spend more time on 
administrative work; restoring staffing will free providers to see more 
patients.

      15. Increase pharmacist positions and establish satellite 
military pharmacies off-base in high-retiree/Guard/Reserve-population 
areas to recover more prescription business from higher-cost retail 
systems; reestablish prescription courier services that were popular at 
many locations under which retirees could have their medications 
delivered from a military pharmacy at some distance from their homes; 
establish pharmacy counters in commissaries/exchanges to facilitate 
one-stop shopping to reduce inconvenience of having to visit multiple 
on-base facilities and spend time waiting in military pharmacies.

      16. Examine further savings options available from consolidation 
of medical services.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCHUGH
    Mr. McHugh. Within a year 35 percent then say I have a mental 
health problem, I need care. I am curious are all of those 35 percent 
then seeking mental health care and counseling because of the 
deployment?
    Mr. Bowers. That data is currently not available. With that said, 
the PDHA and PDHRA are only administered to service members who have 
served on active duty for a 90-day period. Therefore, a referral is 
made based off of deployment-related circumstances. I have provided a 
copy of the most recent PDHRA that will clarify the wording of these 
questions. Please note that although this new version (January 2008) is 
posted on the Deployment Health Clinical Center website, the older 
version (June 2005) continues to be utilized for the assessment process 
as of March 2, 2008. The new form has not been fully implemented. A 
2006 study led by Army Col. Charles Hoge, MD, at the Walter Reed Army 
Institute of Research, looked at the results of Iraq veterans' PDHAs. 
Only 19 percent of troops returning from Iraq self-reported a mental 
health problem. But 35 percent of those troops actually sought mental 
health care in the year following deployment. If the PDHA is intended 
to correctly identify troops who will need mental health care, it 
simply does not work. A follow-up study in 2007, also published in the 
Journal of the American Medical Association, concluded: ``Surveys taken 
immediately on return from deployment substantially underestimate the 
mental health burden.'' Although the PDHRA, which troops fill out six 
months after deployment, is more likely to identify mental health 
injuries its overall effectiveness is also dubious. Troops may not be 
filling out their forms accurately, troops needing counseling are not 
consistently getting referrals, and those with referrals do not always 
get treatment.
    Charles W. Hoge et al., ``Mental Health Problems, Use of Mental 
Health Services, and Attrition from Military Service After Returning 
from Deployment to Iraq or Afghanistan,'' Journal of the American 
Medical Association, March 1, 2006, 295, p. 1023: http://www.iava.org/
images/JAMA.pdf.
    Mr. McHugh. So if you are deployed, that 20 percent figure is 
higher than it would be if you were not?
    Would it be possible to get some data on that, if you have a 
chance?
    Mr. Bowers. Yes. And I have also found that with multiple 
deployments this is having an increasing impact whereas the percentage 
rate goes up per deployment.
    [The information referred to can be found in the Appendix on page 
218].
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. BOYDA
    Mrs. Boyda. In your testimony you had said that multiple tours and 
inadequate time at home and between deployments increased rates of 
combat stress at 50 percent. Where do you have those numbers?
    Mr. Bowers. According to the military Mental Health Advisory Team 
(MHAT)'s survey of soldiers and Marines in Iraq, soldiers deployed to 
Iraq more than once were 50 percent more likely to be diagnosed with 
mental health injuries than those on their first deployment.
    ``Mental Health Advisory Team (MHAT) IV Brief,'' General James T. 
Conway, Commandant of the Marine Corps, April 18, 2007, p. 17: http://
www.militarytimes.com/static/projects/pages/mhativl8apr07.pdf.

                                  <all>

</pre></body></html>
